<html>
<title> - FCC: PROCESS AND TRANSPARENCY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                     FCC: PROCESS AND TRANSPARENCY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________

                           Serial No. 114-21

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-929 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                  Rachel Weaver, Deputy Staff Director
                        Tristan Leavitt, Counsel
                         Cordell Hull, Counsel
                    Sharon Casey, Deputy Chief Clerk
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 17, 2015...................................     1

                               WITNESSES

The Hon. Thomas Wheeler, Chairman, Federal Communications 
  Commission
    Oral Statement...............................................     4
    Written Statement............................................     8

                                APPENDIX

Wheeler-FCC Response to Questions for the Record.................    58
2015-02-04 WSJ - How White House Thwarted FCC Chief on Net 
  Neutrality.....................................................    71
2015-02-23 Daily Caller Obama's Move to Regulate Internet by 
  Picket.........................................................    79
2015-03-16 Orgs to JEC EEC - Net Neutrality......................    82
2015-03-17 Orgs to FCC - Net Neutrality..........................    84
2015-03-02 The Process of Governance by Sallet FCC...............    87

 
                     FCC: PROCESS AND TRANSPARENCY

                              ----------                              


                        Tuesday, March 17, 2015,

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, the Honorable Jason 
Chaffetz (chairman of the committee) presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Walberg, 
Amash, DesJarlais, Farenthold, Massie, Meadows, DeSantis, Buck, 
Walker, Blum, Hice, Russell, Carter, Grothman, Palmer, 
Cummings, Maloney, Norton, Connolly, Kelly, Lawrence, Lieu, 
Watson Coleman, Plaskett, DeSaulnier, Welch, and Lujan Grisham.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order. Without objection, 
the chair is authorized to declare a recess at any time.
    We are here today to examine the FCC's rulemaking process 
and the agency's commitment to transparency. Three weeks ago, 
the FCC approved new rules that will dramatically increase the 
regulation of the Internet. The problem is Americans only got a 
chance to read them last week.
    Last month, Chairman Wheeler told Members of Congress that 
releasing the preliminary discussion draft ran contrary to 
``decades of precedent'' at the Commission. In reality, the 
current process for making changes to Internet rules is far 
less transparent than what occurred with the equally 
controversial media ownership rule changes in 2007.
    In 2007, then-Senator Obama's ``strongly requested'' the 
FCC ``put out any changes that they intend to vote on in a new 
notice of proposed rulemaking.'' Senator Obama believed to do 
otherwise would be ``irresponsible.'' Then-Chairman Kevin 
Martin responded to these concerns by releasing the draft text 
of the rule changes and inviting a 4-week public comment 
period.
    In making the text public, Chairman Martin explained, 
``Because of the intensely controversial nature of the . . . 
proceeding and my desire for an open and transparent process, I 
want to ensure that Members of Congress and the public had the 
opportunity to review my proposal prior to any Commission 
action.'' That didn't happen in this case so to suggest that 
there is no precedent for this, that is just not true.
    Chairman Martin went even further and, in December 2007, 
testified before Congress, more than once, about the rule 
changes. And yet we invited Commissioner Wheeler to come before 
us and he refused. Didn't have any problem meeting at the White 
House, but did have a problem coming before Congress.
    In today's case, Chairman Wheeler did quite the opposite 
and failed to provide this type of transparency. Chairman 
Wheeler did not make the rule public, did not invite public 
comment, and declined to appear before this committee. We find 
that wholly unacceptable.
    Further, it appears the FCC has been concealing certain 
communications from the public without legal basis.
    I want to put up a slide. We will refer to this later. But 
there are several reactions to requests that were made for 
Freedom of Information Act experiences.
    Do we have that slide? I guess not. I am going to keep 
going.
    Organizations that hold our Government accountable depend 
on the FOIA process to gain insight into agency decisionmaking. 
The FCC's track record in responding to FOIA requests is weak, 
at best.
    At the outset, the FCC denies more than 40 percent of all 
FOIA requests. The documents FCC does produce contain a number 
of redactions, including some that black out entire pages of 
text.
    This committee has received 1,600 pages of unredacted email 
traffic previously provided in a highly redacted form through 
FOIA requests to various organizations, including vice.com. 
Today we will compare these communications to understand what 
legal justification Mr. Wheeler's agency used to prevent this 
information from becoming public. In addition, we will examine 
the series of events resulting in the highly controversial vote 
to use Title II to regulate the Internet like a public utility.
    In May 2014, the FCC issued a Notice of Proposed Rulemaking 
concerning Internet regulation that indicated broadband and 
mobile services would remain classified under Title I. Public 
Statements made by Chairman Wheeler and communications received 
by this committee demonstrate that this was the chairman's 
intent during this time period.
    In October 2014, and after the FCC's public comment period 
ended, media reports indicate that Chairman Wheeler intended to 
finalize a hybrid approach that continued to classify broadband 
and mobile Internet services under Title I. Just days later, 
President Obama appeared in a YouTube video calling for a 
radically different proposal: full Title II reclassification, 
similar to a utility or telephone company. Emails provided to 
the committee by the FCC suggest that this came as a major 
surprise to the FCC staff, including Mr. Wheeler.
    On January 7th, Chairman Wheeler announced the FCC would 
radically alter course and reclassify broadband and mobile 
services under Title II. I am sure much will be made about the 
4 million comments that were made, but they were not made in 
the context of fully changing this to Title II. The FCC adopted 
the rule change on February 26th in a three to two vote.
    The lack of transparency surrounding the open Internet 
rulemaking process leaves us with a lot of questions. This is a 
fact-finding hearing. This committee remains committed to 
ensuring full transparency across Government, and I look 
forward to hearing more from Chairman Wheeler today.
    With that, I will now recognize the ranking member from 
Maryland, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    We are here today to discuss net neutrality, the rule that 
was adopted last month by the FCC.
    There are strong opinions on all sides of this issue. No 
doubt about it. On the one hand, Internet service providers, 
including Comcast, AT&T, Verizon and Time Warner, oppose the 
rule and lobbied against it. They argued that additional 
regulation would increase fees, reduce investment, slow network 
upgrades, and reduce competition and innovation.
    On the other hand, supporters of this new rule contend that 
ISPs should not be allowed to discriminate based on content. 
They believe ISPs should be required to act like phone 
companies, controlling the pipes that make up the Internet, but 
not what flows through them. Consumers, social media entities 
and companies like Facebook, Netflix, and Google favor open 
Internet policy because they do not want to be charged higher 
prices to provide their services.
    The question before the committee is not which policy we 
may prefer, but whether the process used by the FCC to adopt 
the rule was appropriate. Republicans who oppose the new rule 
allege that President Obama exerted undue influence on the 
process. But we have seen no evidence to support this 
allegation.
    Instead, the evidence before the committee indicates that 
the process was thorough, followed the appropriate guidelines, 
and benefited from a record number of public comments.
    I welcome Chairman Wheeler here today to discuss the 
process used by the FCC, and I would like to make several 
points for the record. First, the FCC received more comments on 
this rule than any other rule in its history. That is indeed 
very significant. As I understand it, the FCC received about 4 
million comments. This grassroots movement was highlighted when 
John Oliver, a popular late night talk show host, encouraged 
his viewers to go on the FCC website to comment on the proposed 
rule. The number of comments was also extremely high because 
the FCC established a 60-day comment period twice, twice as 
long as required by the Administrative Procedures Act.
    In addition, the President has a right to express his 
position on proposed rules, and he did so forcefully in this 
case. In November he made remarks in support of an open 
Internet rule, arguing that it is ``essential to the American 
economy.'' He said the FCC ``should create a new set of rules 
protecting net neutrality and ensuring that neither the cable 
company nor the phone company will be able to act as a 
gatekeeper, restricting what you can do or see online.''
    When he gave this speech, the President also ensured that 
his office submitted the appropriate ex parte filing. He did 
this through the National Telecommunications and Information 
Agency, which is tasked with providing the FCC with information 
about the Administration's position on policy matters.
    Presidents routinely make their positions known to 
independent agencies regarding pending rules. Presidents 
Reagan, George H.W. Bush, Clinton, and George W. Bush all 
expressed opinions on FCC regulations during their 
presidencies. In fact, for this neutrality rule there were more 
than 750 ex parte filings from individuals, public interest 
groups, lobbyists, corporations, and elected officials, all of 
whom had an opportunity to make their views known.
    Finally, if the committee is going to examine the actions 
of Chairman Wheeler and his communications with supporters of 
the rule, then we must also examine the actions of Republican 
Commissioners Pai, O'Reilly, and others who oppose the rule. 
Multiple press accounts indicate that they have been working 
closely with Republicans on and off, on and off Capitol Hill to 
affect the FCC's work, and we should review their actions with 
the same level of scrutiny.
    Chairman Wheeler, I want to thank you again for appearing 
before our committee today, and I look forward to your 
testimony.
    With that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will hold the record open for five legislative days for 
any member who would like to submit a written Statement.
    We will now recognize our witness, the Honorable Thomas 
Wheeler, Chairman of the Federal Communications Commission. We 
welcome you here today and glad that you could join us.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify, so if you will please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witness responds in the affirmative.]
    Chairman Chaffetz. Thank you. We appreciate it.
    In order to allow time for discussion, we normally ask for 
your testimony to be limited to 5 minutes, but we are very 
forgiving on this. We would appreciate your verbal comments. 
Your entire written Statement will be made part of the record.
    Mr. Wheeler

 STATEMENT OF THE HONORABLE THOMAS WHEELER, CHAIRMAN, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Wheeler. Thank you very much, Mr. Chairman, ranking 
member, members of the committee. I will take that hint, as 
well as your forgiveness, and try to skip through some early 
paragraphs here.
    I am proud of the process that the Commission ran to 
develop the Open Internet Order. It was one of the most open 
and most transparent in Commission history, and the public's 
participation was unprecedented.
    Last April I circulated a draft Notice of Proposed 
Rulemaking that included a set of open Internet protections and 
also asked questions about the best way to achieve an open 
Internet. The Open Internet NPRM adopted in May proposed a 
solution based on Section 706 of the Telecommunications Act of 
1996. It also specifically asked extensive questions as to 
whether Title II of the Communications Act of 1934 would be a 
better solution.
    A quick point on our procedures. While, historically, some 
NPRMs just ask questions, during my chairmanship, I have made 
it a policy to present draft NPRMs to my colleague that contain 
specific proposals as a means to flag key concepts for 
commenters' attention. I believe this is an important part of 
an open and transparent rulemaking process. But let's be clear. 
The proposal is tentative, not a final conclusion, and the 
purpose of the comment period is to full test that concept. In 
this instance, as in others, it worked in the desired way to 
focus the debate.
    The process of the Open Internet rulemaking was one of the 
most open and expansive processes the FCC has ever run. We 
heard from startups; we heard from ISP; we heard from a series 
of public roundtables; as Mr. Cummings mentioned, we heard from 
750 different ex partes; we heard from over 140 Members of 
Congress; we heard from the Administration both in the form of 
President Obama's very public Statement on November the 10th 
and in the form of the MTIA's formal submission.
    But here I would like to be really clear. There were no 
secret instructions from the White House. I did not, as CEO of 
an independent agency, feel obligated to follow the President's 
recommendations. But I did feel obligated to treat it with the 
respect that it deserves, just as I have treated with similar 
respect the input, both pro and con, from 140 Senators and 
Representatives. And most significantly, as has been pointed 
out, we heard from 4 million Americans.
    We listened and learned throughout this entire process, and 
we made our decision based on a tremendous public record.
    My initial proposal was to reinState the 2010 rules. The 
tentative conclusion put forth in the NPRM suggested that the 
FCC could assure Internet openness by applying a ``commercial 
reasonableness'' test under Section 706 to determine 
appropriate behavior of ISPs. As the process continued, I 
listened to countless consumers, innovators, and investors 
around the Country.
    I also reviewed the submissions in the record and became 
concerned that the relatively untested ``commercially 
reasonable'' standard might be subsequently interpreted to mean 
that what was reasonable for ISP's commercial arrangements, not 
what was reasonable for consumers. That, of course, would be 
the wrong conclusion, and it was an outcome that was 
unacceptable.
    So that is why, over the summer, I began exploring how to 
utilize Title II and its well-established ``just and 
reasonable'' standard. As previously indicated, this was an 
approach on which we had sought comment in the NPRM and about 
which I had specifically spoken, saying that all approaches, 
including Title II, were ``very much on the table'' for 
consideration.
    You have asked whether there were secret instructions from 
the White House. Again, I repeat the answer is no.
    Now, the question becomes whether the President's 
announcement on November 10th had an impact on the Open 
Internet debate, including at the FCC. Of course it did.
    The push for Title II had been hard and continuous from 
Democratic Members of Congress. The President's weighing in to 
support their position gave the whole Title II issue new 
prominence. Of course, we had been working on approaches to 
Title II, including a combined Title II/Section 706 solution, 
for some time. The President's focus on Title II put wind in 
the sails of everyone looking for strong open Internet 
protection. It also encouraged those who had been opposing any 
Government involvement to, for the first time, support 
legislation with bright line rules.
    And as I considered Title II, it became apparent that, 
rather than being a monolith, it was a very fluid concept. The 
record contained multiple approaches to the use of Title II. 
One of those was the Title II/Section 706 ``hybrid'' approach 
that bifurcated, some would say artificially, Internet service. 
Another, the approach we ultimately chose, used Title II and 
Section 706, but without bifurcation. And still another, the 
one the President supported, was only Title II without Section 
706. All of these were on the table prior to the President's 
Statement.
    But let me be specific. We were exploring the viability of 
a bifurcated approach. I was also considering using Title II in 
a manner patterned after its application in the wireless voice 
industry, and I had, from the outset, indicated a straight 
Title II was being considered.
    A key consideration throughout this deliberation was the 
potential impact of any regulation on the capital formation 
necessary for the construction of broadband infrastructure. An 
interesting result of the President's Statement was the absence 
of a reaction from the capital markets. When you talk about the 
impact of the President's Statement, this was an important data 
point, resulting, I believe, from the President's position 
against rate regulation. It was, of course, the same goal that 
I had been looking to achieve from the outset.
    As we moved to a conclusion, I was reminded how it was not 
necessary to invoke all 48 sections of Title II. In this 
regard, I had been considering the substantial success of the 
wireless voice industry after it was deemed a Title II carrier 
pursuant to Section 332 of the Communications Act. In applying 
Title II, but limiting its applicable provisions, the Congress 
and the Commission in that Act enabled a wireless voice 
business with hundreds of billions of dollars of investment and 
a record of innovation that makes it the best in the world. 
This is the model for the ultimate recommendation that I put 
forward to my colleagues.
    There were other industry data points that informed my 
thinking and the Commission's analysis. One was the recognition 
of interconnection as an important issue, a topic not addressed 
by the President. Another was my letter to Verizon Wireless 
about its announcement to limit ``unlimited'' data customers if 
the subscriber went over a certain amount of data, a policy it 
ultimately reversed.
    Of particular note was the active bidding, and ultimately 
overwhelming success, of the AWS-3 spectrum auction at the end 
of 2014 and the beginning of 2015, which showed that investment 
in networks, even in the face of the potential classification 
of mobile Internet access under Title II, continued to 
flourish. Other industry data points included the work of Wall 
Street analysts and the Statements of the ISPs themselves. 
Sprint, T-Mobile, Frontier, and hundreds of small rural 
carriers said that they would continue to invest under this 
Title II framework that we were developing.
    Ultimately, the collective findings of the public record 
influenced the evolution of my thinking and the final 
conclusion that modern, light-touch Title II reclassification, 
accompanied by Section 706, provides the strongest foundation 
for Open Internet rules. Using this authority, we adopted 
strong and balanced protections that assure the rights of 
Internet users to go where they want, when they want, protect 
the open Internet as a level playing field for innovators and 
entrepreneurs, and preserve the economic incentives for ISPs to 
invest in fast and competitive broadband networks.
    I stand ready to answer your questions.
    [Prepared Statement of Mr. Wheeler follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. I will recognize myself for 5 
minutes.
    Chairman, did you or the FCC ever provide the White House 
the proposed rule prior to the final vote?
    Mr. Wheeler. No, sir.
    Chairman Chaffetz. The comment period was open May 15th. 
How many times did you meet either at the White House or did 
the White House officials come meet with you during that time?
    Mr. Wheeler. In total? I mean, about any issue?
    Chairman Chaffetz. Yes.
    Mr. Wheeler. I think that we have shown you my calendar 
that has something like 10.
    Chairman Chaffetz. June 11th with Jason Furman, correct?
    Mr. Wheeler. You have the list, sir.
    Chairman Chaffetz. June 18th with Jeffrey Zients; Caroline 
Atkinson, July 17th; September 11th, Jeffrey Zients; September 
30th, Megan Smith; October 15th, Jason Furman; October 28th, 
Jeffrey Zients; and then Mr. Zients visiting with you on 
November 9th at the FCC. Does that sound accurate?
    Mr. Wheeler. If that is the list that we provided, sir.
    Chairman Chaffetz. And yet you only provided an ex parte 
for one of those meetings. Why is that?
    Mr. Wheeler. First of all, the rules are quite clear on 
what constitutes an ex parte, and that is an attempt to file 
specifically in a specific docket and to influence the outcome 
of that docket.
    Chairman Chaffetz. Did you discuss this matter during those 
meetings?
    Mr. Wheeler. And there are provisions long established, 
going back to, I think, the Bush Administration Office of 
Legislative Council.
    Chairman Chaffetz. Sir, I have 5 minutes. I need to ask 
very specific questions.
    Mr. Wheeler. But I need to answer your question. There is 
no requirement. You are asking about ex partes, and there is no 
requirement that there be an ex parte filed. There was no need 
for an ex parte to be filed, either. I just wanted to make sure 
that we have both explained.
    Chairman Chaffetz. I don't understand that. You met with 
them. Are you telling me that this proposed rule did not come 
up in any of those meetings but one?
    Mr. Wheeler. I don't know the details of those meetings. I 
can't recall the details of those meetings. I can assure you 
that there were no, nothing that would trigger an ex parte.
    Chairman Chaffetz. So you were meeting with the White House 
multiple times during the open comment period, after the 
comment period closes, and we are supposed to believe that one 
of the most important things the FCC has ever done, that this 
didn't come up and you didn't have any discussions, that they 
didn't comment back to you about what you were doing? Is that 
what we are supposed to believe?
    Mr. Wheeler. The Administration was very scrupulous in 
making it clear that I was an independent agency.
    Chairman Chaffetz. I guess the point is, chairman, you met 
with them multiple times. They came to visit you, you went to 
visit them. But we invite you to come and you refuse. We ask 
you to send us some documents. You didn't send us a single one. 
And that double standard is very troubling for us.
    I need to move on.
    Mr. Wheeler. Mr. Chairman, one thing here. I did agree to 
come. I am here.
    Chairman Chaffetz. No, but before the rule. You met with 
the White House before the rule but you didn't meet here.
    Mr. Wheeler. You gave me a week's notice. You asked for the 
production of documents.
    Chairman Chaffetz. That is usually what we give people.
    Mr. Wheeler. There were other committees that I am also 
trying to respond to. I said in the response I would look 
forward to coming to you and I look forward to being here 
today.
    Chairman Chaffetz. And I didn't believe you then and I 
don't believe you now. You said that you would not come to 
visit with us. You didn't send us a single document that we 
asked for before that rule. That is just not right.
    Mr. Wheeler. I think we sent you 1,800 documents.
    Chairman Chaffetz. After the rule. My complaint is that 
beforehand you didn't. And you met with multiple times with the 
White House. I am moving on. Hold on.
    Mr. Wheeler. OK.
    Chairman Chaffetz. Our time is short. This is the way it 
works.
    On September 23d, multiple people met at the White House. I 
am going to enter into the record, ask unanimous consent this 
Daily Callar article of February 23d, 2015, White House log 
showing that a number of people met at the White House that are 
activists on this topic.
    Chairman Chaffetz. I want to play a video clip. This is 
6:55 in the morning of the day that the President is going to 
issue his Statement. This is you, right, at your home?
    Mr. Wheeler. Yes, sir.
    Chairman Chaffetz. And you woke up that morning to 
protesters out in front of your house; they laid down or sat 
down in front of your car, wouldn't let you get out of your 
driveway. They were there trying to make quite a Statement. And 
there is a long 5-minute video of this.
    At 7:35 that morning you sent out an email to your fellow 
commissioners calling it an interesting development, and then 
later that afternoon--I want to put up a slide.
    [Slide.]
    Chairman Chaffetz. Now, when this was provided to vice.com, 
you redacted this. This was all redacted. Hard to see up on the 
screen, but we don't understand why this was redacted. This is 
what you wrote. In fact, if you want to read it, go ahead.
    This is the same day; 6:55 in the morning, protesters show 
up; 7:35 you are sending out a concern. Then, all of a sudden, 
the President's Statement comes out in a very coordinated 
fashion. He has the right to weigh in on this, that is fine.
    But later that afternoon you send out this email, it says, 
FYI isn't it interesting? The day of the demonstration just 
happens to be the day folks take action at my house. The video 
POTUS just happens to end up the same message as the message 
for POTUS. The White House sends an email to the supporters 
list asking ``Please pass this on to anyone who cares about 
saving the Internet.'' And then you write, hmm. Why did you 
write that?
    Mr. Wheeler. Does this suggest a secret plan, secret set of 
instructions?
    Chairman Chaffetz. I am asking you why. You wrote it. It is 
your language.
    Mr. Wheeler. I think that this clearly is showing that 
there was no kind of coordination.
    Chairman Chaffetz. There was no coordination? The 
protesters show up, just happen to show up the morning before 
the announcement comes? Nobody knows that the President is 
going to make this announcement except the protesters, who show 
up at your home, and you are saying that, you are the one that 
wrote that you thought, hmm, isn't it interesting.
    Mr. Wheeler. Excuse me, I wasn't speaking clearly, clearly. 
No, I am talking about coordination with us at the Commission. 
I don't know who else they were coordinating with, and this 
suggests that maybe they were coordinating with others.
    Chairman Chaffetz. So you had multiple meetings with the 
White House, they came to visit you, and we are supposed to 
believe that there was only one discussion about this? Is that 
still your testimony?
    Mr. Wheeler. Let me be really clear. They came once to meet 
with me and filed an ex parte----
    Chairman Chaffetz. Yes, that is true.
    Mr. Wheeler [continuing]. At which time I was told, as the 
ex parte says, the President is going to make an announcement a 
couple days later, and he is going to endorse Title II. That is 
all I knew. The other meetings at the White House, I was there 
on trade, I was there on national security issues, I was there 
on Spectrum, I was there on auctions, I was there on E-Rate.
    There were numerous issues. Caroline Atkinson was one of 
the names that you named when you were going through the list. 
I can assure you I didn't talk to her about Open Internet 
because she knows nothing about Open Internet. That entire 
conversation, and several that I have had with her, have been 
about trade issues and the process for reviewing agreements 
that relate to national security items.
    Chairman Chaffetz. So you only spoke one time with Jeffrey 
Zients about this, one time?
    Mr. Wheeler. The only time that Jeffrey Zients said to me 
this is what the President's position is was when he came and 
filed an ex parte saying that. I have been repeatedly saying I 
know the President has a strong position in favor of it the 
open Internet, as do I, and keeping them informed that I was 
fighting for a strong open Internet position.
    Chairman Chaffetz. So you informed them and you are telling 
me they had no reaction, no comments?
    Mr. Wheeler. I informed them that I had a strong position 
in favor of. As a matter of fact, I believe you have emails 
that show that I have emails with them saying, hey, these press 
reports that I am watering this down aren't true.
    Chairman Chaffetz. I have lots more questions, but my time 
is far exceeded.
    We will now recognize the ranking member, Mr. Cummings, for 
5 minutes.
    Oh, sorry, Mr. Welch. Mr. Welch of Vermont, you are 
recognized for 5 minutes.
    Mr. Welch. Thank you very much.
    Let's get right to this. Mr. Wheeler, this was probably one 
of the most contentious questions, public policy questions that 
we have faced in the time I have served in Congress, 4 million 
comments. All of us, as Members of Congress, received comments. 
The two things that I understood were of concern to you and 
your fellow commissioners, Republican and Democrat, were how 
would whatever decision you made affect innovation and capital 
formation, the build-out, is that correct?
    Mr. Wheeler. That was the balance, sir.
    Mr. Welch. And was that something that, over time, you all 
debated to try to figure out what would be the impact of 
whatever direction you took?
    Mr. Wheeler. Yes, sir. The whole rulemaking process is an 
evolutionary process, and, as I said in my Statement, the whole 
concept of what Title II is is a fluid and evolutionary 
process.
    Mr. Welch. All right. And the premise of this hearing seems 
to be almost like a Watergate type of deal, what did you know 
and when did you know it. But in public policy, when you are 
trying to figure out what you can know and get to a good public 
policy decision, it is a back and forth discussion; it is 
listening to the 4 million comments, it is listening to Members 
of Congress, oh, and, incidentally, the President of the United 
States, elected by everybody is a relevant commentator, is that 
correct?
    Mr. Wheeler. I can tell you I was constantly learning 
through this process.
    Mr. Welch. All right. Now, there was, in The New York 
Times, a report about a previous matter at the FCC where 
President Reagan had the commissioner in for 45 minutes. Did 
President Obama ever summon you to the White House for the 
purpose of a 45 minute discussion about the way it is going to 
be with this order that you were considering?
    Mr. Wheeler. No, sir. President Obama has never summoned me 
to the White House to discuss anything the FCC is doing.
    Mr. Welch. All right. And you indicated on this capital 
formation issue, after the President, who, by the way, was 
obviously aware of the enormous grassroots concern about the 
outcome, that when he made his comment, you observed what was 
the impact on the markets, correct?
    Mr. Wheeler. Yes, sir.
    Mr. Welch. And what was that impact?
    Mr. Wheeler. There was zero impact on the market. And one 
of the concerns that all of the ISP's had been making is 
understand what the consequences of an action in Title II may 
be on the markets and, lo and behold, there wasn't.
    Mr. Welch. In fact, in the case of another country that has 
done this, Denmark, I believe, have they continued to have open 
access and capital formation with respect to the build-out of 
their Internet?
    Mr. Wheeler. You are better informed than I am, sir, on 
Denmark.
    Mr. Welch. OK. Now, just on this capital formation issue, 
you mentioned the Spectrum auction. Did that exceed what was 
expected to be revenues from that auction?
    Mr. Wheeler. Significantly. We raised about $41 billion, 
which was triple what some of the estimates were.
    Mr. Welch. And with respect to the market since then, has 
there been any major disruption that can be attributed to the 
decision that you made?
    Mr. Wheeler. The market has continued to advance northward 
on the valuations of these stocks.
    Mr. Welch. All right. And my understanding, as well, is one 
of your enormous concerns when you initially proposed possibly 
using Section 706 was the wariness about having too heavy-
handed a regulatory regime. And you have some history in the 
industry. Were there factors that you took into consideration 
in the decision on Title II about what type of regulatory 
framework that would be applicable?
    Mr. Wheeler. Yes, sir. The model that was built for the 
wireless industry, which the wireless industry sought, by the 
way, was to use Title II and to have them declared a common 
carrier, but then to forebear, to not enforce those parts of 
Title II that are no longer relevant.
    Mr. Welch. And is it your intention to work with your 
fellow commissioners, both Republican and Democrat, in order to 
achieve that light touch approach?
    Mr. Wheeler. Yes, sir, and I believe this rule has. As a 
matter of fact, there are 48 sections to Title II, and we have 
forborne from 27 of those, and that just compares with the 19 
that were forborne from in the wireless environment.
    Mr. Welch. OK. I want to go back basically to the money 
question here, the suggestion that somehow, some way, President 
Obama, who has a right to express an opinion, muscled you and 
the Commission into doing something that you did not want to 
do, and as suggestions that that was the case, the Chairman has 
indicated a number of meetings you had with folks from the 
White House. I just want to give you an opportunity to say 
whether the President gave you directions, explicit or 
implicit, as to how you should do your job or left it to you to 
exercise your judgment and your persuasive ability with your 
fellow commissioners.
    Mr. Wheeler. No, the President did not. And I interpreted 
what the President's Statement was was that he was joining with 
the 64 Democratic Members of Congress and the millions of 
people, and that he was identifying with them.
    Mr. Welch. Thank you, Mr. Wheeler.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Wheeler, in your testimony you said that the Notice of 
Proposed Rulemaking adopted in May proposed a solution based on 
Section 706 of the Telecommunications Act. In fact, that seems 
to be your position throughout most of 2014, a 706-based 
approach. In fact, you testified on May 20th of last year, in 
front of Energy and Commerce Committee, that Section 706 
approach is sufficient to give the FCC what it needs for an 
open Internet. And as late as October 30th of last year, The 
Wall Street Journal wrote, ``Chairman Wheeler will move forward 
with a 706-based approach.''
    Now, back to where the chairman was. All that seems to 
change on November 10th, where you State publicly that now 
Title II is definitely in the mix, and that is ultimately the 
direction that the Commission took. So my question is real 
simple: What changed between October 30th and November 10th?
    Mr. Wheeler. Mr. Jordan, I think that is an incorrect 
assumption.
    Mr. Jordan. I am using your Statements, Mr. Wheeler. I am 
using what The Wall Street Journal, did they get it right or 
were they wrong?
    Mr. Wheeler. So on February 19th I said that we keep Title 
II authority on the table. The Commission has authority to keep 
Title II if warranted.
    Mr. Jordan. I am not disputing that.
    Mr. Wheeler. There is a laundry list, sir, where I said 
that.
    Mr. Jordan. Hang on. Hang on. But your testimony, I am 
quoting from today's testimony you just read. The proposed rule 
was a 706-based approach, and The Wall Street Journal, as late 
as October 30th, said a 706 approach was what Chairman Wheeler 
was going to move forward with. It changes on the 10th. What 
happened between the 30th and the 10th seems to me two events: 
one, the President made his YouTube video and commented and 
moved toward a Title II approach and he issued a Statement, 
and, two, you had an important meeting with Mr. Zients on 
November 6th.
    Mr. Wheeler. I think that is an incorrect assumption, sir.
    Mr. Jordan. I am going by the time line, the stuff you 
provided.
    Mr. Wheeler. Let me quote from The New York Times the day 
after The Wall Street Journal, saying there are four options on 
the table.
    Mr. Jordan. No, no, no. You can respond when I ask you a 
question. That is how it works.
    Mr. Wheeler. OK.
    Mr. Jordan. All right. So now let me just go through where 
the chairman was earlier, your interactions with the White 
House. March 6th, FCC Chairman Tom Wheeler meets with Jeff 
Zients. Now, here is where you can answer something. Who is 
Jeff Zients, by the way?
    Mr. Wheeler. He is the head of the National Economic 
Council.
    Mr. Jordan. OK, at the White House, right? And assistant to 
the President for economic policies, got this long title, 
right?
    Mr. Wheeler. Correct.
    Mr. Jordan. OK. So you met with him on March 6th. March 
7th, FCC Chairman Tom Wheeler meets with the White House 
economic advisor, Jeff Zients; May 7th, meeting with Jeff 
Zients at the White House; May 21st, Tom Wheeler meets with 
Jeff Zients at the White House; June 11th, Tom Wheeler meets 
with the Economic Council advisors at the White House; June 
18th, Wheeler meets with Jeff Zients at the White House; 
September 11th, Tom Wheeler meets with Jeff Zients at the White 
House; October 15th, Tom Wheeler meets again with White House 
economic advisors; and October 28th, Tom Wheeler meets with 
Jeff Zients at the White House.
    So, again, leading up to October 30th, you met with the 
White House nine different times, all at the White House with 
Mr. Zients, who is the assistant to the President for economic 
policy. And up through October the position of the Commission, 
according to The Wall Street Journal and according to your 
testimony in front of Congress is a 706-based approach. That 
changes just a few days later. And I would argue it changes on 
November 6th, when again you met with Mr. Zients.
    But the one difference here, Mr. Wheeler, the one 
difference here is nine times you went to the White House; on 
November 6th Jeff Zients comes to you. As I look at the record, 
this is the only time he came to you, and my contention is, and 
I think where the chairman is and, frankly, where a lot of 
Americans would be as they look at this record is Jeff Zients 
came to you and said, hey, things have changed; we want the 
Title II approach to this rule.
    Now, am I wrong?
    Mr. Wheeler. Yes. First of all, there may have been nine 
meetings, but I tell you, I listed them a moment ago and I 
won't go through them again.
    Mr. Jordan. No, there were nine meetings at the White House 
where you went to the White House. There is one meeting when 
Jeff Zients comes to you. And the meeting when he comes to you 
is right before everything changes.
    Mr. Wheeler. The long list dealing with trade, dealing with 
cyber, dealing with auctions, and as I said in my testimony, 
before there was any input there were multiple issues on the 
table, including a Title II and 706 approach and a hybrid----
    Mr. Jordan. I have 29 seconds. Hang on 1 second, Mr. 
Wheeler.
    Mr. Wheeler. But it is a mistake to say that the only thing 
that was on the table was Section 706.
    Mr. Jordan. I didn't say that.
    Mr. Wheeler. I thought you had.
    Mr. Jordan. No, I said nine times you met with him and you 
testified in front of Congress 706 and The Wall Street Journal 
report that is what you were going to do, and then it changes a 
couple days later. I have 11 seconds.
    Mr. Wheeler. And The Wall Street Journal report was wrong.
    Mr. Jordan. I have 11 seconds. In your testimony you say, I 
want to be clear, there were no instructions from the White 
House. I did not, as CEO of an independent agency, feel 
obligated to follow the President's recommendations.
    One last question, if I could, Mr. Chairman.
    Mr. Wheeler, who is Philip Verveer?
    Mr. Wheeler. He is a special counsel in my office, senior 
counsel in my office.
    Mr. Jordan. Your top lawyer. Your top advisor. Senior 
counsel.
    Mr. Wheeler. He is an advisor, yes.
    Mr. Jordan. OK. Well, this is an email our staff got with 
Mr. Verveer and a lobbyist from AT&T on the 10th, the day this 
all changes, 4 days after Mr. Zients came to you. After you 
went nine times to the White House in the course of a year, Mr. 
Zients comes to you, everything changes, and this is what the 
AT&T representative said to your senior counselor: This is 
awful and bad for any semblance of agency independence. Too 
many people saw Zients going in to meet with Tom last week.
    So I am not the only one who thinks everything changed on 
November 6th. This individual talked to your senior counselor 
and said things changed on November 6th when, again, the White 
House came to you and said, Mr. Wheeler, new sheriff in town, 
things are different, it is Title II from this point forward. 
And that is ultimately what you all adopted. Even though you 
had a 706 plan all this time, you ultimately adopted a Title II 
approach.
    Mr. Wheeler. We did not adopt a Title II approach. We 
adopted a Title II and Section 706, which I believe, I can't 
read it all, but I think it is referenced in the first line of 
that email.
    Chairman Chaffetz. The gentleman's time has expired.
    Mr. Cummings. Mr. Chairman, with all due respect, the 
gentleman just went over a minute and a half. At least I would 
ask that he be allowed to answer that question.
    Chairman Chaffetz. Sure. Go ahead.
    Mr. Wheeler. Thank you. There were, and as I was pointing 
out, The New York Times actually wrote the day after this Wall 
Street Journal article, that hybrid ``is one of the four 
possibilities the FCC is considering as it seeks to draw up a 
net neutrality framework that unlike the last two attempts will 
hold up in court.'' The Title II and 706 usage, as I said in my 
testimony, was on the table along with a Title II and 706 non-
hybrid, along with 706, along with Title II by itself.
    Chairman Chaffetz. Now recognize the gentlewoman from New 
York, Mrs. Maloney, for 5 minutes.
    Mrs. Maloney. Thank you.
    Chairman Wheeler, it has been reported that the proposed 
open net neutrality rule received 4 million comments, and I am 
curious, compared to other rules before the FCC, did any other 
rule get anywhere near this number of comments?
    Mr. Wheeler. No, ma'am, and it broke our IT system.
    Mrs. Maloney. I heard that. Do you have a sense of what 
percentage of the comments were in favor of net neutrality? I 
know that thousands of comments came in to my office, and all 
of them were in favor of an open Internet and net neutrality. 
What about your comments?
    Mr. Wheeler. I think they ran about three to one in favor.
    Mrs. Maloney. Three to one in favor. There were also 
several online petitions. I know of one, Free Press, but there 
were several others. Are you aware of these online petitions?
    Mr. Wheeler. Yes, ma'am.
    Mrs. Maloney. And I also know that there were 
demonstrations, even in your house, and open meetings and 
forums and all kinds of comment periods that you participated 
in. And I assume you are familiar with the popular late night 
host, John Oliver. He had a piece about net neutrality this 
summer that went viral, and he was highly critical of you and 
your time as a lobbyist. Are you aware of his program?
    Mr. Wheeler. Yes, ma'am. I had new research that had to do 
with what a dingo was.
    Mrs. Maloney. OK. Well, he encouraged his viewers in this 
program to go to the FCC site and to register their position, 
and I understand that after his piece aired that you had to 
extend the comment period, that it even broke down there were 
so many comments coming in in favor of net neutrality and an 
open Internet. Is that true?
    Mr. Wheeler. Yes, ma'am.
    Mrs. Maloney. So do you have any idea how many comments 
were submitted after John Oliver's show? Did you break that 
down? How many came in?
    Mr. Wheeler. I don't know that off the top of my head; I 
can get that for you.
    Mrs. Maloney. Would you get that for the committee?
    Mr. Wheeler. Yes, ma'am.
    Mrs. Maloney. And all that attention on you and the efforts 
of the individuals that commented, the grassroots 
organizations, and the John Oliver piece, is it fair to say 
that they had some impact on your decisionmaking process, is 
that correct?
    Mr. Wheeler. Well, they all went in to the record, No. 1, 
and the decision was made on the record, and obviously there 
was a high level of concern. I also met around the Country.
    Mrs. Maloney. I know, you went all around the Country 
holding public forums and listening to comments.
    Mr. Wheeler. And those had great impact.
    Mrs. Maloney. So I would like to ask you, I am very 
curious. In your opinion, who had the greater impact on the 
FCC's rule, President Obama's comment or John Oliver's show?
    Mr. Wheeler. Well, you know, I tend to view that what was 
going on was the President was signing on to the 64 Members of 
Congress and the millions of people who had told they want 
Title II.
    Mrs. Maloney. I sincerely want to thank you, Chairman 
Wheeler. It appears that the voices of the American people were 
listened to and that you made the proper choice. I commend you 
for keeping an open mind during this process and for doing what 
is right for the American people and, I believe, the economy.
    So I would just say, with all due respect, I believe that 
my Republican colleagues are looking at this issue in the wrong 
way. They should be thanking President Obama for coming out 
strongly in favor of an open Internet rule, clearly where the 
American public is and clearly where the economists are, and 
they shouldn't be criticizing him.
    What I am hearing here today is similar to the hearings we 
have had on the auto industry, where the restructuring that 
President Obama did, with the support of Congress, to the auto 
industry, it was highly critical, they were very critical of 
it. But now it is reported it saved 500 jobs; we are now 
exporting autos; we had the biggest sales of American autos in 
the history of our Country. It was the right decision and I 
believe this is the right decision for the American people, and 
I want to thank you.
    Mr. Wheeler. Thank you, ma'am.
    Mr. Cummings. Would the gentlelady yield?
    Mrs. Maloney. I most certainly will.
    Mr. Cummings. Chairman Wheeler, much has been made about 
these emails between some of the FCC staff on November 10th, 
2014, the day of the President's announcement. Up until the 
President's announcement, were a majority of the public 
comments in favor of an open net policy?
    Mr. Wheeler. Yes, sir.
    Mr. Cummings. In light of all of these public comments, was 
Title II being explored by your staff?
    Mr. Wheeler. We were deep into Title II and a Title II 706 
combination.
    Mrs. Maloney. Mr. Ranking Member, may I reclaim my time?
    Mr. Cummings. Of course.
    Mrs. Maloney. I just want to end by saying that President 
Obama saved the auto industry. He saved the auto industry and 
he saved the Internet, and I believe very strongly that 
Republicans are on the wrong side of this issue for the economy 
and for the American people.
    Chairman Chaffetz. Thank the gentlewoman.
    We will now recognize the gentleman from Florida, Mr. Mica, 
for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    Welcome. I think this boils down to people are trying to 
figure out why you were against the President's policy on net 
neutrality before you became for the President's policy and in 
a very abrupt turn, and some of it evolves around 
circumstances. The Zients meeting with you appears to be very 
influential. It appears, too, from some of the communications I 
have seen, May 15th, is that when you were releasing the NPRM?
    Mr. Wheeler. Yes, sir.
    Mr. Mica. I have a copy of an email from Senate Chief of 
Staff, this is Mr. Reid's chief of staff at the time, David 
Krone. Do you know him?
    Mr. Wheeler. Yes, sir.
    Mr. Mica. It appears like there was enlistment to try to 
keep your previous position intact. He said, good luck today. 
Not sure how things have landed, but trust to make it work. 
Please shout out if you need anything. Spoke again last night 
with the White House and told them to back off Title II. Went 
through, once again, the problems it creates for us.
    Do you remember this email?
    Mr. Wheeler. Yes, sir.
    Mr. Mica. OK. Well, it appears that, in defense of your 
trying to come up with a certain position, that people were 
trying to back you. It looks like Senator Reid was backing you 
at that time, right? Or at least this is the indication we 
have. And he was trying to get the White House to back off 
pressuring you. Is that correct?
    Mr. Wheeler. So I am really grateful for this question, Mr. 
Mica, because there is, I think, a couple of things that are 
important to respond to. One is that the President was clear he 
was for a strong open Internet during the campaign----
    Mr. Mica. But before his position, you were against his 
position, and you had allies that were trying to help you. I 
mean, Reid was a big cheese at that time, and this was his 
chief of staff. I was a chief of staff on the Senate; I know 
the power that they wield.
    Mr. Wheeler. Yes, sir. And what I was saying is the against 
it before you were for it, the answer in that is no.
    Mr. Mica. Well, no. I mean, everything we have, every 
public document, and some of it has been cited here, you were 
taking a different course. You took a different course, too, in 
even rolling this out. You offered a proposal, is that correct?
    Mr. Wheeler. I have testified, sir, that this is an 
evolutionary process.
    Mr. Mica. The proposal was very scant on mention of Title 
II.
    Mr. Wheeler. No, it was very rich in the mentioning of 
Title II and specifically said is it better.
    Mr. Mica. OK.
    Mr. Wheeler. But be that as it may, as I said, this was a 
evolutionary process, and the job of a regulator is to put 
forth a proposal to see what it attracts in terms of concerns, 
and to learn from that experience and to evolve; and that is 
what I did through this entire process.
    Mr. Mica. But, see, everything we have indicates that you 
were headed in a different direction. You were trying to stem 
the tide of the White House. I mean, you were in an awkward 
position. And even Commissioner Pai, is it, he said in his 
dissenting Statement, President Obama's endorsement of Title II 
forced a change in the FCC's approach. So maybe everyone else 
who has been observing this process, your comments up to date, 
and even one of the commissioners is in conflict with what you 
believe.
    Mr. Wheeler. Mr. Mica, before the President made his 
comment, we were working on a Title II and 706 solution. After 
he made his comment, he delivered a Title II and Section 706.
    Mr. Mica. And I think Mr. Zients, on November 6th, strong-
armed you. I mean, it is pretty evident and everyone saw it.
    Mr. Chairman, let me yield to you.
    Chairman Chaffetz. Could we put up the slide, please?
    [Slide.]
    Chairman Chaffetz. I want to know why you felt compelled to 
communicate with the White House about what The New York Times 
was writing. This was back in April. You started with this: The 
New York Times is moving a story that the FCC is gutting the 
open Internet rule. It is flat out wrong. Unfortunately, it has 
been picked up by various outlets. You go through and explain 
it. Then you send that to Jeffrey Zients. Then you also send 
one to John Podesta, sorry, I should have had you on the first 
email. Podesta writes back to you, brutal story. Is somebody 
going to go on the record to push back? You write back to him, 
Yes. I did with a Statement similar to what I emailed you.
    You are supposed to be an independent agency, and you are 
interacting regularly with the White House on how to 
communicate on the PR of a New York Times story?
    Mr. Wheeler. So, Mr. Chairman, I had said that we were 
going to reinState the 2010 rules, which the President had 
endorsed. The report in The New York Times was saying he is not 
doing that. I was, therefore, responding and saying you should 
know that that report is not true.
    At the same point in time I have furnished you also emails 
to Members of Congress, Democratic Members of Congress, saying 
the same point, and that was what this was. This was, look, the 
2010 rules I stand behind and I am not out in a campaign to gut 
them, which is what was being reported in the press. And one of 
the subsequent emails I sent, as you will recall, was an 
article that said, oh, wait a minute, this was 
mischaracterized; and that is what that exchange was about.
    Chairman Chaffetz. Then why are you redacting all of this 
in a FOIA request? How does that meet the standard of FOIA? Why 
is this redacted?
    Mr. Wheeler. I have to tell you the FOIA, how we respond to 
FOIA is done by career staff, not in my supervision, based on 
longstanding procedures. I can't answer why certain things are 
blacked out.
    Chairman Chaffetz. This Administration might want to take 
some lessons about FOIA and how to respond to it, because I am 
tired of having the heads of the agencies saying, oh, I don't 
know anything about it. This is the public's right to know. 
This is how the public understands what is happening and not 
happening, and your organization is redacting this information, 
and it is wrong. I need a further explanation. When can you 
give us a further explanation as to why these types of material 
is redacted? What is a reasonable time to respond?
    Mr. Wheeler. I would be happy to have the staffs work and 
provide that to you.
    Chairman Chaffetz. By when?
    Mr. Wheeler. With expedition.
    Chairman Chaffetz. Can you give me a date? By the end of 
the month, is that fine?
    Mr. Wheeler. Sure.
    Chairman Chaffetz. Thank you.
    We will now recognize the gentlewoman from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Wheeler, you know, it is very hard to make a case 
against net neutrality, and these members don't want to go home 
and make that case, so they are trying to make a case, for 
example, against hearing the opinion of the President of the 
United States on neutrality. This is a very important policy 
issue. It is inconceivable in our Republic that the President 
would be silenced on it.
    I ran an independent agency. I looked to see what the rules 
were in this case. The fact of an administration weighing in on 
such a notion is not new, is it?
    Mr. Wheeler. No, ma'am.
    Ms. Norton. In fact, I was able to discover that Presidents 
Reagan, H.W. Bush, Clinton, George W. Bush have all weighed in 
specifically on FCC policies in the past, is that not correct?
    Mr. Wheeler. Yes, ma'am.
    Ms. Norton. I can understand that in such a case where 
there might be some appearance, after all, you are an 
independent agency and you must abide by that independence, 
that you would go to your office of legal counsel. And as it 
turns out, there is an office of legal counsel's opinion 
advising the then-President George H.W. Bush on whether it was 
indeed permissible for that president to contact the FCC to 
advocate for a specific position on rulemaking. Is that not 
correct?
    Mr. Wheeler. Yes, ma'am.
    Ms. Norton. Now, because this is the President of the 
United States, and not one of our constituents, it is 
interesting to note that there are rules about how this should 
be done. That needs to be laid out here, since the President is 
being criticized, you are being criticized, the Commission is 
being criticized; and that has to do with disclosure. The legal 
opinion Stated whether or not these matters must be disclosed 
in rulemaking on the record if they are of substantial 
significance, is that not the case?
    Mr. Wheeler. Yes, ma'am.
    Ms. Norton. The opinion also addressed whether it is 
permissible for the FCC to solicit the views of White House 
officials, solicit the views of White House officials, and 
whether these would be subject to public disclosure. Is that 
not correct?
    Mr. Wheeler. Yes, ma'am.
    Ms. Norton. So here we have rules saying, yes, Mr. 
President, we are not going to silence you on important issue, 
but we are going to make clear that your views are absolutely 
transparent. So there is no law prohibiting the FCC from 
soliciting the opinion of the White House, there are no rules, 
and it is in the discretion of whether the FCC would have to 
disclose that communication, is that not correct?
    Mr. Wheeler. Yes, ma'am.
    Ms. Norton. The White House would be required to submit an 
ex parte filing only if its response was of substantial 
significance and clearly intended to affect the ultimate 
decision, is that not the case?
    Mr. Wheeler. Yes, ma'am.
    Ms. Norton. Did not the White House submit an ex parte 
filing on November the 10th, 2014?
    Mr. Wheeler. Yes, ma'am.
    Ms. Norton. Mr. Chairman, I submit that the rules have been 
followed to the letter. This has been an openly transparent 
matter. The President was not and should not have been 
silenced. If there were more Americans wanting to submit their 
opinions, you could imagine that those Americans would also 
want to know where the President of the United States stood on 
this matter.
    I thank you very much and yield back my time.
    Mr. Cummings. Would the gentlelady yield, please?
    Ms. Norton. I would be glad to yield.
    Mr. Cummings. Thank you.
    Mr. Wheeler, when you come into office, you are sworn in, 
is that right?
    Mr. Wheeler. Yes, sir.
    Mr. Cummings. And you have an oath that you have to adhere 
to, is that right?
    Mr. Wheeler. Yes, sir.
    Mr. Cummings. And during this process, this entire process, 
just tell us whether you believe that you have upheld your 
oath.
    Mr. Wheeler. Yes, sir.
    Mr. Cummings. Every syllable?
    Mr. Wheeler. Yes, sir.
    Mr. Cummings. Thank you very much.
    Ms. Norton. Could I enter into the record the opinions of 
some who have submitted them, civil rights and other 
organizations of various kinds, to the record, Mr. Chairman?
    Chairman Chaffetz. Without objection, so ordered.
    Chairman Chaffetz. We will now recognize the gentleman from 
Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you from Mr. Chairman.
    Coming from the auto capital of the world, let me, for the 
record, also make a Statement that I will back up the reason 
why I did. The President was involved, but it was not the 
President that saved the auto industry; it was the American 
auto worker that saved the auto industry, and is doing that to 
this day.
    And I think it is also with the Internet. The President has 
his right to make Statements. Many people have a right to make 
Statements. Congress has a right to make Statements. The 
question is whose Internet is it. I contend it is the American 
people's. It is wide open, it is broad, and it has worked 
pretty well. This is not opening up, in my opinion, the 
Internet; it is closing it down.
    Mr. Wheeler, on November 7th, going back to some earlier 
questions, the day after Zients visited you, The Wall Street 
Journal reported that the FCC was likely to delay net 
neutrality rules until the next year. Was there ever a point in 
time when the open Internet issue was intended to be on the 
agenda for December 11th public meeting of the Commission?
    Mr. Wheeler. Yes, sir. I was trying to push for that, but 
it was not possible.
    Mr. Walberg. What happened to push it off the agenda?
    Mr. Wheeler. It was just a bridge too far.
    Mr. Walberg. Bridge too far? In whose mind?
    Mr. Wheeler. You can whip the horse, but you can't make it 
go faster sometimes.
    Mr. Walberg. But in whose mind was it a bridge too far?
    Mr. Wheeler. The staff, those of us who were trying to put 
it together. We just couldn't get the work done.
    Mr. Walberg. In your Statement announcing the new rules, 
you called the new rules historic and also ``a shining example 
of American democracy at work.'' If that is so, why did you not 
let Americans see the rule before voting on it?
    Mr. Wheeler. Oh, golly, sir, we followed the process that 
has been in place at the Commission for both Republican and 
Democratic chairmen for recent memory.
    Mr. Walberg. But the people never saw the rule.
    Mr. Wheeler. We were very specific in putting out a fact 
sheet and saying this is what we are looking at. Then we went 
into an editing process, which is not unlike a judicial kind of 
situation back and forth.
    Mr. Walberg. But you went through that. You went through 
that in your opening Statement, all of the process, giving them 
drafts, and that is great, a little idea of where you are 
going; and that developed over time. But ultimately the 
language of the rule was not submitted to the American eyesight 
to view and ultimately comment on it, and why was that?
    Mr. Wheeler. That is the typical process at the agency, as 
it has been forever, is that a draft rule is put out by the 
chairman's office and then the commissioners go into editorial 
negotiation, if you will.
    Mr. Walberg. Sure.
    Mr. Wheeler. Over what the final rule would say, and that 
is normally a 3-week process. That does not involve putting out 
the rule.
    Mr. Walberg. But in light of the monumental process this 
was, this is the most monumental change to the rules of the 
Internet in the history of the Internet, wouldn't you say?
    Mr. Wheeler. It is a letting down, setting down.
    Mr. Walberg. It is huge.
    Mr. Wheeler. Yes.
    Mr. Walberg. It is huge. And in light of that, and the 
emotion that I feel back in my district, and I am sure everyone 
on this dais feels it in their district, people commented on 
it; you had 140 Members of Congress, you had over 4 million 
comments from people and entities concerned with this issue. I 
just don't understand why, at the very last, when you are going 
to have the rule as written, that it wasn't released to the 
public for comment. If you did it over again, would you have 
done it differently and let them see it?
    Mr. Wheeler. No, sir.
    Mr. Walberg. Why not?
    Mr. Wheeler. First of all, it wasn't a final rule; there 
were changes that were being made in the process. Second of 
all, it is against the Commission's procedures to do that, and 
always has been.
    Mr. Walberg. I don't know that to be true. In fact, I would 
regard that as not true. With Commissioner Pai, he called, ``a 
monumental shift toward government control of the Internet.'' 
In light of this monumental shift, what harm would come from 
letting the American public see the text of the draft rule 
before the FCC----
    Mr. Wheeler. We didn't hide the pea, sir. We put out 
specifics; this is what it does. We then engaged, as we always 
do, in private, in camera, editorial negotiations amongst the 
commissioners. We never put out a draft before those edits.
    Mr. Walberg. That is not true.
    Mr. Wheeler. I am sorry?
    Mr. Walberg. And the American public deserved the 
opportunity at this level, at this time period, to have 
comments and opportunity to push back. This was a shift, a 
monumental shift that should have had that oversight.
    Mr. Chairman, I yield.
    Chairman Chaffetz. If the gentleman would yield.
    Mr. Walberg. I yield.
    Chairman Chaffetz. You have the discretion to make it 
public, and you chose not to, correct?
    Mr. Wheeler. I have the discretion. It is not the practice 
of the Commission to do that.
    Chairman Chaffetz. You have the discretion to make it 
public, correct?
    Mr. Wheeler. The answer is yes.
    Chairman Chaffetz. OK.
    Mr. Wheeler. Can I refine my answer?
    Chairman Chaffetz. No, you can't. Hold on 1 second. 
Chairman Martin, at the request of Members of Congress, 
including Senator Obama, who insisted on the openness when he 
was the Senator, and they did it. They came and testified to 
Congress, they made the rule open and they went through a 
second comment period; and you chose not to.
    Mr. Wheeler. I am glad you raise that, sir, because I think 
that that is more urban legend than fact. My understanding of 
the Chairman Martin situation is as follows: one, that he wrote 
an op-ed in The New York Times in which he released two 
paragraphs of an order. He followed that with a press release 
in which he released one and a half pages of a 41-page section 
of 124-page item. That is a difference between releasing an 
entire item.
    Chairman Chaffetz. He made himself available to Congress; 
they went through a second. And what is startling to me and 
what is telling to me is that Senator Obama's position on this 
is totally different than President Obama's position on this.
    Time has expired. We are now going to recognize the 
gentleman from Virginia, Mr. Connolly, for a very generous 5 
minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Chairman Wheeler, is it unusual for an independent agency 
such as yours to communicate with the executive branch?
    Mr. Wheeler. No, sir.
    Mr. Connolly. Is it routine?
    Mr. Wheeler. Yes, sir.
    Mr. Connolly. Does it compromise independence, as you 
understand the word?
    Mr. Wheeler. No, sir.
    Mr. Connolly. The Chairman began his questioning by reading 
off a list of meetings that apparently we are supposed to see 
as sinister, you or your colleagues meeting with various White 
House officials. Would that be unique to your tenure as 
chairman? Previous chairmen never did that, is that correct?
    Mr. Wheeler. I haven't seen the logs, but I believe that 
every chairman has these kinds of meetings.
    Mr. Connolly. Is there something sinister, though, in the 
timing of these meetings? Because I think the insinuation from 
my friends on the other side is meant to suggest that there is 
something really deliberately sinister here; you are meeting 
with them either to tailor the rule or to get your instructions 
or to have some kind of quiet subversive conversation that 
obviously the public isn't aware of. Is that what occurred?
    Mr. Wheeler. No, sir.
    Mr. Connolly. Did the White House ever direct you in the 
wording, framing, or content of the rule?
    Mr. Wheeler. No, sir.
    Mr. Connolly. Ever?
    Mr. Wheeler. Even when they filed, it was not a direction; 
it was a here is our opinion, which, as I say, is the same 
opinion as 64 Members of Congress had been writing me to 
express and millions of Americans had been writing to express.
    Mr. Connolly. Right. And as we just saw with a letter to 
the ayatollah in Iran, one doesn't always want to put too much 
credence in letters from Members of Congress; it has to be put 
on into context.
    Mr. Wheeler. Can I pass on that one, sir?
    Mr. Connolly. Yes, I know. I thought I would just sneak 
that in in my 5 minutes.
    OK, the chairman was just suggesting in his overtime that 
you could have waived the rule and, by extension, should have 
waived the rule to bring the public in at an earlier date in 
the draft or the drafting of the rule. Your answer to that was 
a little bit derivical: yes, I had that power, but it is not 
our practice. Going beyond that, though, following up on the 
chairman's question, why, in looking at that ability to waive, 
did you not avail yourself of it?
    Mr. Wheeler. There are many reasons why negotiations 
amongst commissioners ought to be in camera. So, for instance, 
you put out the draft. What do you do, then, 2 days later when 
paragraph 345 gets changed? Do you put it out again and say, 
oh, hey, look at this? How do you deal with the back and forth 
between various offices? How do you deal with ongoing research?
    Is it right to have this kind of an activity that can be 
very much affecting of capital markets out there, people 
misinterpreting what this is or that, markets crashing or 
inflating, whatever the case may be? And it is for that reason, 
those kinds of reasons that FOIA, in specific, says these kinds 
of editorial negotiations are specifically not FOIA-able, 
because they are works in progress. And that was why I made 
that decision, sir, and that is why that precedent exists, I 
believe.
    Mr. Connolly. And do you regret that decision?
    Mr. Wheeler. No, sir.
    Mr. Connolly. From your point of view, by making that 
decision, you protected the integrity of the process and the 
content of the rule?
    Mr. Wheeler. Yes, sir.
    Mr. Connolly. OK. Did you feel, when President Obama issued 
his Statement with respect to net neutrality--there were press 
reports at the time that you and your colleagues were surprised 
or taken a little bit off-guard. You may want to comment on 
that, but did you view his issuance of such a Statement as 
undue interference in your process, which was still underway?
    Mr. Wheeler. No. As we have discussed, all presidents have 
had input to the process, in multiple administrations and 
multiple proceedings; it is not undue at all.
    Mr. Connolly. Not any different than Congress weighing in 
with letters or resolutions or hearings such as this?
    Mr. Wheeler. Correct, sir.
    Mr. Connolly. Thank you. I have no further questions.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. If the gentleman would yield, I would 
like to actually--I don't know if we can put up this slide. I 
am going to need a copy of that back.
    But your communications person, in November, a couple days 
afterwards, in response to your question about were they 
surprised, did it have an impact, Sharon Gilson. Who is Sharon 
Gilson?
    Mr. Wheeler. She runs our media operation.
    Chairman Chaffetz. She wrote, ``This question rankles me. 
Do you take this as twisting the knife? I don't want to 
overreact, but I am ready to log a call.'' So to suggest that 
there was no rankling internally there at the FCC I think 
would, certainly they are emailing back and forth. And, again, 
this gets redacted. I don't see this as part of the public 
process here that warrants any sort of redaction, but just 
thought I would bring that up.
    I appreciate the gentleman.
    Mr. Cummings. Would the gentleman yield?
    Mr. Connolly. Since it is my time, I just want to remind 
the chairman that is an interesting point, but we had a 
virtually identical situation with J. Russell George, where his 
media person issued a Statement contradicting his sworn 
testimony, and he disavowed her Statement saying she was 
misinformed. So if you are going to cite a media person as 
corroborating your point, I am happy to do so.
    Now I yield to my friend, Mr. Cummings.
    Mr. Cummings. Mr. Wheeler, do you have a comment with 
regard to what the chairman just said?
    Mr. Wheeler. Actually, this is the first I have seen this. 
This QA rankles me, I am not even sure what it is referencing.
    Mr. Cummings. And who is the person writing that and what 
level are they on?
    Mr. Wheeler. Shannon Gilson, and she is the head of the 
media office.
    Mr. Cummings. All right. Thank you very much.
    Chairman Chaffetz. Now recognize the gentleman from Texas, 
Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    I tell you, I am sitting here shaking my head at how some 
of this stuff has happened. I remember back in the 1980's and 
1990's the Internet grassroots, Internet activists were 
fighting to keep Internet service, remaining classified as an 
information service and not as a telecommunication service, and 
the marketing job to completely flip that is just staggering to 
me.
    But I also want to address something my friend from across 
the aisle just brought up, and that is--wait, I completely lost 
my train of thought. I will get back to it.
    Mr. Connolly. I think you were agreeing that I had a 
brilliant point that needed to be reinforced because it is St. 
Patrick's Day.
    Mr. Farenthold. On the public comment section, I remember 
where I was going now, what happens is we are seeking public 
comments on things that we don't know what we are seeking 
comments on. Open government is about the people knowing the 
thought process that goes into creating rules and regulations. 
It is why we have C-SPAN, it is why anybody can turn on and see 
the debates going on in Congress and reach out to his or her 
Congressman or woman and give comment.
    I am really troubled by--and I think this isn't just the 
FCC; this is the executive branch agencies creating laws by 
regulation behind closed doors. You are defending doing it 
behind closed doors and not letting the public, and I just have 
to say I personally have a problem with that. The more light of 
day we have on that, the better off we are.
    Let me go back to my public comments question in 
particular. I have a hierarchy kind of comments that come into 
my office. You know, something that is originally written by a 
constituent, thoughtful piece is the most important, then 
something from a non-constituent, then a form letter, and then 
one of these things that you clip. So is there a breakdown you 
would be willing to share with us of the public comments, how 
they fall within some sort of similar hierarchy? You are 
nodding your head like you all think the same way.
    Mr. Wheeler. I know exactly what you mean, Congressman, and 
I get all kinds of notes that range from----
    Mr. Farenthold. I am running out of time. Can you provide--
--
    Mr. Wheeler [continuing]. To the handwritten. I will try. I 
don't know if we can break out 4 million comments that way, but 
I will try.
    Mr. Farenthold. I mean, if it is done, it is done. Whatever 
information you could get on me.
    All right, so you have moved and what you all have done, 
and I think we will cover more of this in a Judiciary Committee 
hearing, but I have two questions that are really kind of 
burning on me. One is, as you move Internet service from an 
information service to a telecommunications service under Title 
II, are we opening the door to applying universal service fund 
taxes to Internet services, to your broadband service? Does 
this open the door to that?
    Mr. Wheeler. We specifically said that we would not do that 
in this proceeding. As you know, there is an ongoing joint 
Federal-State board addressing that question. Even if it were 
to happen, in a hypothetical, that doesn't mean that the total 
number gets changed.
    Mr. Farenthold. And do you feel like these regulations of 
subjecting the retail Internet service providers to more 
government regulation is going to encourage or discourage more 
competition in the field?
    Mr. Wheeler. One of the reasons why we were really focused 
on making sure that there was no impact on investment capital 
is because we want to incentivize investment.
    Mr. Farenthold. It seems like you are having to go through 
a tangle of government regulations and be a heavily regulated 
industry, as opposed to just hanging out your shingle and 
stringing some wires or putting up a radio transmitter to do 
fixed broadband.
    Mr. Wheeler. So there are four regulatory issues in this 
rule: no blocking, no throttling, no paid prioritization, and 
that you must be transparent with consumers. Those four seem to 
be pretty well adopted; they are in the Republican bill that 
has been proposed.
    Mr. Farenthold. I guess my issue is my mom, before she 
passed away, only used Internet, but I was her tech support, so 
I wanted her to have an always on broadband connection, so any 
time her modem didn't connect, I didn't get a phone call. But 
it seems like under this scenario there would be no ability to 
buy just like an email only type broadband service.
    Mr. Wheeler. That is absolutely incorrect. There is nothing 
that we do with retail rate regulation or the way in which----
    Mr. Farenthold. But her service provider, I couldn't go out 
and buy something so I get my email always on and fast, but I 
am never going to stream a Netflix video. Why shouldn't I have 
that alternative to buy that?
    Mr. Wheeler. There is nothing that prohibits a service 
provider from having that option. You can have email only; you 
can say I want 5 megabits, I want 10 megabits, I want 25 
megabits, and you can charge all at different prices.
    Mr. Farenthold. But it is speed only.
    Mr. Wheeler. There is nothing in this order that regulates 
consumer rates, and that was by design. To go to your core 
question of investment, consumer revenues, the day after this 
order goes into effect, should be exactly the same as consumer 
revenues the day before because we do nothing to regulate 
consumer revenues.
    Mr. Farenthold. I disagree that you are going to see 
limited in product offering. I don't like the fact that AT&T 
throttled my unlimited access after X number of gigabytes. I 
could buy more gigabytes for more money and do that, so I want 
that choice.
    Chairman Chaffetz. I thank the gentleman.
    Now recognize the ranking member, Mr. Cummings, for 5 
minutes.
    Mr. Cummings. Thank you very much.
    Chairman Wheeler, I want to thank you for your testimony. 
You, over the years, have earned a reputation for high 
integrity and excellence, and when I asked you a little earlier 
about having taken an oath and whether you believe you adhered 
to that oath, your answer was yes, and I am just here to tell 
you I believe you.
    Mr. Wheeler. Thank you, sir.
    Mr. Cummings. I want to ask you about the actions of the 
Republican Commission members. We have heard outrage about the 
President this morning. Let's go to Commissioner O'Reilly, Mike 
O'Reilly. He is a former Republican Senate staffer who has been 
an active opponent of the Open Internet rule. Is that a fair 
Statement? Do you know that to be the case?
    Mr. Wheeler. Yes, sir.
    Mr. Cummings. OK. Chairman Wheeler, when the committee 
requested documents from you, we also requested documents from 
the other commissioners, including Commissioner O'Reilly, and 
we received them. For example, we have now obtained an email 
exchange between Republican Commissioner Mr. O'Reilly and three 
individuals outside the FCC. They are Robert McDowell, a 
partner in the communications practice of a large lobbying firm 
that represents a variety of telecommunications clients; Harold 
Furchtgott-Roth, an economic consultant in the communications 
sector; and Baron Soca, the President of Tech Freedom, a 
libertarian think tank focused on tech policy issues.
    In this exchange, Commissioner O'Reilly sought edits, 
sought edits on a draft op-ed he was working on opposing the 
Open Internet rule.
    Chairman Wheeler, were you aware, at the time, that 
Commissioner O'Reilly was having these private communications 
with these individuals? Were you aware of that?
    Mr. Wheeler. No, sir.
    Mr. Cummings. All three of these individuals have 
professional interests that could be affected by the passage of 
this rule, is that right?
    Mr. Wheeler. Yes, sir.
    Mr. Cummings. In response to Commissioner O'Reilly's 
request, several of the individuals provided substantive edits. 
In fact, one response had so many edits that he apologized, 
writing, ``I know it looks like a lot of red ink, but I really 
just tried to finesse, clarify, etc.''
    According to this email chain, Commissioner O'Reilly then 
forwarded these edits onto his staff, writing, this is what he 
sent his staff: ``OK, took a bunch and left out some stuff.''
    Chairman Wheeler, Commissioner O'Reilly's op-ed was 
published in The Hill on May 5th, 2014. That was just 10 days 
before the Notice of Proposed Rulemaking was published, isn't 
that right?
    Mr. Wheeler. Yes, sir.
    Mr. Cummings. So these edits provided by outside parties 
seem clearly designed to affect the ultimately decision of the 
FCC. Are you aware of any ex parte filing regarding this email 
exchange or these communications?
    Mr. Wheeler. Golly, Congressman, no.
    Mr. Cummings. Are you aware?
    Mr. Wheeler. No, sir, I am not aware.
    Mr. Cummings. Would it be normal for you to be aware?
    Mr. Wheeler. No.
    Mr. Cummings. Now, my staff went through all the ex parte 
filings regarding this rule, all 750 of them, and they could 
not find one, not one filed by any of these three individuals 
for these communications. Do you know why that might be?
    Mr. Wheeler. No, sir.
    Mr. Cummings. And you just sat here and testified about how 
you need to go by the rules and you need to file the ex parte 
under certain circumstances. Would you tell us how you feel 
about that, what you just learned, assuming it to be accurate, 
what I just told you? Is that consistent with the way it is 
supposed to be, the way you are supposed to operate?
    Mr. Wheeler. I think that it is fair to say, Congressman, 
that there is often a free and fluid back and forth between 
practitioners in the bar and members of the Commission.
    Mr. Cummings. But do you think an ex parte should have been 
filed?
    Mr. Wheeler. I don't know in this specific one. I don't 
want to sit here and hip-shoot on that; I would leave that to 
the ex parte experts.
    Mr. Cummings. I understand. Well, let me be clear. I am not 
suggesting that anyone engaged in inappropriate activity here, 
but if the Republicans want to accuse the President of undue 
influence in this process, even when he submitted, he did it 
the right way, an ex parte filing, they can't just conveniently 
ignore similar actions on the Republican side. There is 
something wrong with that picture: fairness, balance; and I am 
concerned about that.
    With that, I yield back.
    Chairman Chaffetz. Now recognize the gentleman from 
Florida, Mr. DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Chairman Wheeler, I want to go back to this Wall Street 
Journal report, October 30th, 2014, which reported that you and 
the Commission were prepared to move forward on a hybrid 706 
type approach; and I think that was consistent with a lot of 
the public reporting at the time. So is it your testimony that 
that was not in fact the case, that you were not at that time 
leaning toward a 706 hybrid type approach?
    Mr. Wheeler. No, we had gone through an evolutionary 
process, and at that point in time we were focusing on a hybrid 
approach. That is a correct Statement.
    Mr. DeSantis. OK. Very good. So obviously something changed 
between October 30th and when you eventually submitted this 
rule. I think it has been pointed out how the President was 
very forceful in making his ideas known. Did you know that when 
the Commission adopted the rule, 400 pages, February 26th, 
2015, the Democratic National Committee tweeted, 
congratulations for adopting President Obama's plan?
    Mr. Wheeler. I found it out afterwards.
    Mr. DeSantis. OK. So you know this is being reported as 
something that is actually the President's plan, adopted by the 
Commission, and it is less that this is something that the 
Commission came up with on its own.
    Now, you had talked about the release of the report. The 
report could have been released in early February. The vote 
happened several weeks after that. Why not just release the 
proposed rule to the public, given that this is something that, 
one, has a lot of interest, but, two, all the comment, all the 
period and input was done really before you had the movement to 
a Title II framework? So why not just let the people see it?
    Mr. Wheeler. So I think there are a couple of things here. 
First of all, let me be clear that your comment about a hybrid 
being on the table is correct, as were the other approaches 
that, as I said to Mr. Jordan, the day following that Journal 
article, The New York Times reported that there were four on 
the table.
    Mr. DeSantis. No, I understand that, but just with the 
transparency, can you address the transparency?
    Mr. Wheeler. Mr. Connolly and I engaged in this. I did not 
release the draft order because it was the draft, underlined, 
order. I did take pains to have fact sheets and other outreach 
so the people understood what was in it.
    Mr. DeSantis. So you are saying----
    Mr. Wheeler. But the exact words----
    Mr. DeSantis. Let me clarify this, though. You are saying 
it is a draft order until the Commission approved it, and that 
is why you didn't release it?
    Mr. Wheeler. Yes, sir, that is the way things work, yes.
    Mr. DeSantis. Well, actually, you could have released it, 
and that has been made clear; and I think that, particularly in 
this town, this idea that we are just passing things to find 
out what is in things, without the public having access to 
that, I don't think that that works.
    Let me ask you this. Can you guarantee to the American 
taxpayer, people who use broadband service, that if this goes 
into effect, that they will not see taxes show up as 
contributions to the Universal Service Fund?
    Mr. Wheeler. We have carefully drafted this with two 
specific things in mind.
    Mr. DeSantis. You can explain, but can you guarantee them 
they will not pay more?
    Mr. Wheeler. We have said that this does not trigger 
universal service, as I said to a previous question.
    Mr. DeSantis. But that has been disputed. I know that one 
of your members dissented and said that he believes Title II 
imposes a statutory obligation----
    Mr. Wheeler. We are talking past each other. Let me just be 
clear, because this is a specific point, that the provision we 
have forborne from the provision that would authorize us today, 
in this rulemaking, to do that, to have universal service. 
There is a joint Federal-State board addressing that very 
question today. How they resolve things in the future, I do not 
know, but this rulemaking was very clear to say that we do not 
trigger that which you are concerned.
    Mr. DeSantis. But it does not foreclose it, and the fact 
that we are in Title II framework, that opens the door for this 
to happen, depending on what was decided with that commission.
    Look, I want open, robust Internet. When I see 400 pages of 
red tape, this, to me, does not seem what openness is going to 
be. And the experience when the government gets involved in 
these things, the 400 pages, it is never going to be less than 
400; it is going to be more. It is going to metastasize and 
government is going to be able to get involved in other aspects 
of this. I wish the public would have had more input. I know 
that this is going to be contested, obviously, in the courts 
and here in the Congress.
    I am out of time and I yield back.
    Mr. Wheeler. Can I clarify one thing, sir? There is 
actually eight pages of rules in there. The rest is 
establishing the predicates and the background for, for 
instance, the court challenge.
    Chairman Chaffetz. I thank the gentleman from Florida.
    We now recognize the gentleman from California, Mr. Lieu, 
for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chairman.
    Thank you, Mr. Wheeler, for your public service. I know you 
will be testifying in many committees on Capitol Hill. I have 
heard a lot of back and forth today, and I just want to get on 
the record the answer to the following question, which is 
essentially was the process followed by FCC in this case 
essentially the same process that the FCC has followed in other 
prior rulemakings?
    Mr. Wheeler. Yes, sir.
    Mr. Lieu. In fact, in this case there was a lot of public 
comment, and there is nothing wrong with a commissioner being 
influenced by public comment, correct?
    Mr. Wheeler. Absolutely.
    Mr. Lieu. There is nothing wrong with a commissioner, if a 
Member of Congress wrote a particularly compelling letter, to 
be influenced by such a letter, correct?
    Mr. Wheeler. I hope that we learn from the whole process, 
from the record being built.
    Mr. Lieu. And there is nothing wrong with any commissioner 
being influenced by a president of the United States, provided 
that that contact is reported in an ex parte filing, correct?
    Mr. Wheeler. We should make our decision independently on 
the record that has been established by those who have 
commented.
    Mr. Lieu. And in this case the Administration did file an 
ex parte record.
    Mr. Wheeler. Correct.
    Mr. Lieu. And members of the public can go on your website 
and look at everyone who has filed ex parte, correct?
    Mr. Wheeler. Yes.
    Mr. Lieu. And the President of the United States cannot 
fire you as a commissioner, correct?
    Mr. Wheeler. Correct.
    Mr. Lieu. Wouldn't we want different folks to weigh in on 
issues of this magnitude, including not just the President, but 
Members of Congress and public? Wouldn't we want everybody to 
be able to weigh in and you all make your decision? Isn't that 
the way democracy works?
    Mr. Wheeler. I think it is the way democracy works and it 
is the way the Administrative Procedure Act was structured, to 
make sure that there was an open opportunity for notice and 
comment, and then make a decision based on what that record 
was.
    Mr. Lieu. Thank you.
    I yield back the balance of my time.
    Chairman Chaffetz. I thank the gentleman. If the gentleman 
would yield for a second.
    Similar to what you are saying, I do think there is room 
for everybody to weigh in, whether it be the President, a 
Member of Congress. But it is about openness and transparency; 
it is about filing those things, and I think that is what the 
gentleman is saying. I would hope that we could find other 
people on both sides of the aisle.
    I really do believe, certainly at the FCC and other 
agencies, that maybe we should require by law that there be a 
30-day notice. Take the final rule, give it the light of day 
and let it be out there for 30 days. What harm would there be 
in doing that?
    And I would appreciate if the gentleman would consider 
that. He is a very thoughtful member and I appreciate the time.
    Mr. Cummings. Would the gentleman yield further?
    You have heard all of this, Mr. Chairman, and I am just 
curious. When you hear the complaints back and forth, and here 
you are sitting here, what I consider to be a hot seat, are 
there things that you would like to see us do either as the 
Congress to bring more clarity or do you feel like the process 
is fine just the way it is? I mean, because we want to be 
effective and efficient. We can't just keep going on these 
merry-go-rounds over and over again. There will be 
controversial decisions in the future.
    And going to Mr. Lieu's comments, if there is guidance that 
we can provide that will get rid of any kind of ambiguity with 
regard to people wondering whether folks have crossed this line 
or that line, I mean, I am sure you have thought about this a 
lot, and I know you want to act in the best interest of the 
United States and our citizens and certainly your agency. Is 
there anything that you can think of?
    Mr. Wheeler. I appreciate that question, Mr. Cummings. My 
goal has been to make sure that I follow the rules. I don't 
make the rules or the regulations that interpret the statute; I 
try to follow them. You know, the Administrative Conference of 
the United States is kind of the expert agency when it comes to 
processes, and they and you, I think, have a significant 
challenge in that the rules have to apply across all agencies, 
not just the FCC, so far be it from me to get specific and say 
you ought to change Section 2(b)(iii). But I see my job as 
trying to adhere to the statute and the rules that have been 
put in place to deliver on those concepts.
    Chairman Chaffetz. I thank the gentleman. And as I 
recognize Mr. Walker here, I want to respond to what you just 
said and highlight, again, under the rules you did have the 
discretion to make it public, and you elected not to. I think 
what Congress should consider is compelling you to make that 
open and transparent, rather than just simply making it 
discretionary.
    Now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Being a relatively new member in Congress, I am learning 
things every day. In fact, I had already known that Al Gore had 
invented the Internet, but today I found out, according to Mrs. 
Maloney, that the President has saved the Internet.
    Just curious. Do you think is a Statement that is fair? Do 
you think his involvement has saved the Internet for the 
future?
    Mr. Wheeler. Oh, I think that this is a much bigger issue, 
Congressman. I think that the Internet is the most powerful and 
pervasive platform that has ever existed in the history of the 
planet, and that it has an impact on every aspect of our 
economy and every aspect of how we act as individuals; and for 
that to exist without rules and without a referee is 
unthinkable.
    Mr. Walker. Well, let me get back to what you said earlier. 
You testified, in fact, today that you did not feel obligated 
to follow the President's suggest. So my question is what 
exactly was the President's suggestion.
    Mr. Wheeler. The President filed an ex parte saying that we 
should have Title II, and we did not follow that suggestion; we 
did Title II plus 706. He did not say that we should do 
interconnection; we did interconnection. He did not suggest 
that we should have the scope of forbearance that we had.
    Mr. Walker. Sure. I am actually getting to the place as far 
as your action with him, when you say he suggested. There were, 
what, 9 or 10 trips to the White House? Do you remember which 
time it was suggested as far as where there was disagreement, 
where there was agreement?
    Mr. Wheeler. I am sorry, sir. My comment about suggestion 
was specifically referencing the ex parte that he filed.
    Mr. Walker. OK. So you are saying there was no one-on-one 
suggestion with you and the President whatsoever when it came 
to net neutrality discussion?
    Mr. Wheeler. That is correct.
    Mr. Walker. OK. Let's go back to the pictures, obviously, 
of the protesters that were there that morning. Did you have 
any word or any idea that those protesters would be showing up 
that morning, or were you as surprised as the look that you had 
on your face?
    Mr. Wheeler. I was surprised. And if I had spent less time 
brushing my teeth, they would have missed me, because they just 
barely caught me.
    Mr. Walker. So you had no idea that those guys, you weren't 
tipped off they were showing up that morning?
    Mr. Wheeler. No.
    Mr. Walker. OK. Your posture has been called, by some of 
the outlets, apologetic since this decision was made. Why do 
you think that assumption is being made?
    Mr. Wheeler. Apologetic?
    Mr. Walker. Yes. Since the decision has been made, there 
have been some outlets that have said maybe not backing up on 
the decision, but it seems like it was not as firm as it was 
when the decision was made. Why do you think that would be 
characterized like that?
    Mr. Wheeler. Oh, my goodness, Congressman. I hope that this 
is not apologetic. I said, in the press conference after this, 
this was my proudest day being involved in public policy for 
the last 40 years as I have. There is no way that I am 
apologetic. I am fiercely proud of this decision and believe 
that it is the right decision and believe that it is an 
important decision not only for today, but for tomorrow.
    Mr. Walker. You talked about, a little earlier, and I think 
Congressman DeSantis mentioned this a little bit earlier, you 
talked about The Wall Street article was wrong. You may have 
addressed this just a minute ago. Can you tell me specifically, 
I believe that what was your comment, that The Wall Street 
Journal had it wrong? Specifically, what did they have wrong?
    Mr. Wheeler. Well, what I was referencing was The New York 
Times article the following day where, as I understood in The 
Wall Street Journal article, and I obviously don't have it, but 
as has been represented here that it said there was one 
solution on the table; and The New York Times the following day 
said there were four solutions on the table.
    Mr. Walker. So which one is accurate?
    Mr. Wheeler. The Times is correct.
    Mr. Walker. The Times is correct.
    Mr. Wheeler. Let me be really specific. And I have 
constantly said throughout this entire process that Title II 
has always been on the table. And I said in my testimony that 
we were looking at 706, Title II and 706 in a hybrid, Title II 
and 706 in not a hybrid, and Title II by itself.
    Mr. Walker. The appearance of being an independent agency, 
which you have claimed probably 12 to 15 times today, can you 
understand why people would have some questions when there are 
meeting after meeting with the White House? Is there anything 
that the American people or Congress can see there is a 
balance, where there is also input from the other side, as 
opposed to just one particular partisan perspective?
    Mr. Wheeler. So you know, Congressman, during that period, 
I believe that I met more than three times as often with 
Members of Congress. You know, my job is to take input. My job 
is to provide expertise on issues that are being considered. 
And that kind of an ongoing relationship with all aspects of 
government is an important role, I believe.
    Mr. Walker. Thank you, Mr. Wheeler. My time has expired.
    I will yield back to the Chairman.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize Mrs. Watson Coleman from New Jersey.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    Mr. Wheeler, thank you very much for your testimony. Thank 
you for your forbearance and thank you for the fact that it 
seems that you responded to the enormous interest and concern 
with net neutrality. I am a newbie also, but I became aware of 
net neutrality on social media. So thank you so much for that.
    I wanted to just clarify a couple things. First of all, 
with respect to the comment about perhaps we ought to have a 
60-day comment period after the final rule, that would then 
make that final rule possibly not a final rule, and I don't 
know how we would then determine it to ever became a final 
rule.
    It has been Stated that you have met with the White House 
on several occasions during what is supposedly a controversial 
period of time. Was the issue of net neutrality the only thing 
you were doing during the period of time when you were 
considering net neutrality? Were there a variety of other 
issues you may have been meeting with members of the White 
House or at the White House? And, if so, just for the record, 
might you just want to share some of those?
    Mr. Wheeler. Thank you, Congresswoman. Yes. So I met on 
national security issues; we met on trade related issues; 
cybersecurity; the E-Rate, what was happening there; spectrum 
policy. The White House was obviously very, very much involved 
in implementing the instructions of the Congress to re-purpose 
spectrum, and we had to work very closely with all the agencies 
and the White House on that. And the spectrum auctions, 
obviously, as well.
    Mrs. Watson Coleman. Thank you, Mr. Wheeler. That gives us 
an illustration of the variety of issues that you had been 
addressing. We would love to have the opportunity to work on 
one thing at a time. We know you don't, we know the President 
doesn't, and you know we can't.
    So, I mean, to suggest that that is the only thing that you 
were doing is certainly misleading and is, I believe, a 
mischaracterization of your continued Statements that you were 
not meeting on these issues, and I have no reason not to 
believe you. And given that this is such a huge issue, that 
everyone wants access and net neutrality, it just seems to me 
that you were quite willing to listen to more than 4 million 
people, what they had to say, to all of the motions that were 
filed for consideration, including the President of the United 
States. I listen to him; I think he is really quite brilliant 
and has great ideas for this Country.
    So I just wanted to thank you for the opportunity to hear 
your testimony and to be able to give you an opportunity to 
answer questions as to the kinds of things that are on your 
plate that you might have been discussing with the White House.
    Mr. Wheeler. Thank you.
    Mrs. Watson Coleman. Thank you very much.
    Thank you, Mr. Chairman. I yield back my time.
    Chairman Chaffetz. I thank the gentlewoman.
    We will now recognize the gentleman from Georgia, Mr. Hice, 
for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    And thank you, Mr. Wheeler, for being here with us. It has 
been pretty well established that there were not, and with many 
excuses, but the FCC did not report various meetings with the 
White House and White House officials, even though you did 
report to various lobbyists and activists and companies and so 
forth. That is well established here today, but this does not 
seem at all as though transparency has taken place. When there 
is a specific area that is deliberately not reported, the 
appearance is that it is secretive, that there is something to 
hide. And you are denying that today, is that true?
    Mr. Wheeler. Yes, sir, there was no secret. I am not sure I 
understood. Reporting to lobbyists? I am not sure what----
    Mr. Hice. The ex parte type thing. I mean, we have 755 
entries.
    Mr. Wheeler. Oh, when they would file.
    Mr. Hice. Yes.
    Mr. Wheeler. I am sorry.
    Mr. Hice. And there is no filing with the White House 
except one. So, I mean, it gives every appearance of secrecy 
rather than transparency. Would you agree with that?
    Mr. Wheeler. And I think that it has to do with the fact 
that the language of ex parte is when it is intended to affect 
a decision and to provide information of substantial 
significance.
    Mr. Hice. And you don't believe this is substantial 
significance?
    Mr. Wheeler. There was when Jeff Zients came to see me and 
said this is what the President is going to do. That was 
substantial significance.
    Mr. Hice. As a general rule, if someone is offering you an 
opinion, you would not object to an opinion being offered to 
you, I am assuming. Just a general rule. We all respect the 
First Amendment. If someone has an opinion, you would feel free 
to let them have an opinion.
    Mr. Wheeler. Yes, sir.
    Mr. Hice. On the other hand, if someone or some group, 
whatever, was trying to give directives to you or the FCC or 
whatever, you would probably be outspoken against that action. 
I mean, if someone is giving an opinion, that is no problem; 
but if someone wants to be intrusive and give orders, that may 
be a different scenario and you would be outspoken toward it.
    Mr. Wheeler. And I think, boy, did we get opinions on this.
    Mr. Hice. OK. You mentioned a while ago that the White 
House offered their opinion on this whole thing, and I would 
like to put up a slide that we had a little bit earlier, emails 
from the chief of staff to the Senate majority leader to you. 
The top line up there that is in red, the comment is: spoke 
again last night with the White House and told them to back off 
Title II. That sounds like a whole lot more than an opinion. 
Typically, you would not tell someone who is offering an 
opinion to back off. Would you agree with that?
    Mr. Wheeler. I don't understand the parsing of the words, 
sir.
    Mr. Hice. All right. You said you don't have any problem, 
there is no problem, typically, with someone just giving an 
opinion. But this is more than an opinion because the comment 
here is tell the White House to back off. So there is more than 
just an opinion coming from the White House, it would appear.
    Mr. Wheeler. You know, the other part about that is that I 
had, at the same point in time, 90 letters from Republican 
Members of Congress saying that I should not do Title II.
    Mr. Hice. I am not talking about Members of Congress. This 
Statement right here is the White House.
    Mr. Wheeler. But the point is that suggested Title II is 
very much in the mix. This, if I can read right, is----
    Mr. Hice. It says, spoke again last night with the White 
House and told them to back off Title II. Went through once 
again the problems it creates with us. This is more than an 
opinion.
    Mr. Wheeler. This is May, and as I indicated, in May I was 
proposing that Section 706 was the solution, and I learned 
through the process of this, long before the White House ever 
had their filing, that Section 706 was not the answer.
    Mr. Hice. But the White House was not providing an opinion, 
they were putting some sort of directive to do something; 
otherwise, there wouldn't have been comments to tell the White 
House to back off. It was more than an opinion coming from the 
White House.
    Mr. Wheeler. You know, I think that you are reading into 
this.
    Mr. Hice. Why else would the comment be to back off if it 
is just an opinion? If the White House was offering an opinion, 
no one would be saying back off. There was more than an opinion 
that was being presented.
    Mr. Wheeler. With all due respect, that is your opinion.
    Mr. Hice. Well, it is your email. It is your email, and the 
words back off are pretty strong.
    Mr. Wheeler. I don't think that it is conclusive that there 
is more than clearly just what is Stated there.
    Mr. Hice. It says back off because this is creating 
problems for us. That is more than just my opinion; it is an 
email.
    Mr. Wheeler. That is his opinion.
    Mr. Hice. I yield my time.
    Mr. Wheeler. That is his opinion.
    Chairman Chaffetz. Thank the gentleman.
    We will now recognize the gentlewoman from the Virgin 
Islands, Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman.
    And thank you, Mr. Wheeler, for being here this morning. I 
think that it is so important to understand the significant 
attention that this Open Internet order has generated, and that 
that interest is primarily in the process as opposed to the 
content of what the Open Internet is.
    And having these hearings regarding this process and 
whether or not you have used discretionary, your discretionary 
ability, as opposed to a rule, is something that I think is 
also very interesting. And I thought it would be important for 
us to understand the steps the FCC takes in that rulemaking 
process.
    Now, the official FCC blog contains a post from the general 
counsel, John Solet, entitled The Process of Governance: The 
FCC and the Open Internet Order.
    Mr. Chairman, I ask unanimous consent to enter that post 
into this hearing record at this time.
    Mr. Hice [presiding]. Without objection. Thank you.
    Ms. Plaskett. Thank you.
    Ms. Plaskett. The general counsel begins by explaining that 
the FCC seeks to ``create an enforceable rule that reflects 
public input, permits internal deliberation, and is built to 
withstand judicial review.''
    Chairman Wheeler, is it an accurate Statement that that is 
the objectives in the FCC and its rulemaking?
    Mr. Wheeler. Yes, ma'am.
    Ms. Plaskett. And after the public comment period, the FCC 
staff reviewed proposals in light of that public record, so we 
know the public comment period was actually even longer than 
normally is done; 60 days as opposed to the 30 days that you 
were required, because of the volume and the interest of this. 
When was that done, the review beginning in light of the public 
record?
    Mr. Wheeler. Well, the traditional way that we do it is 
that the comment period closes and you have an opportunity to 
review those comments, and then you have a period where you can 
comment on the comments, and then you review those.
    Ms. Plaskett. OK. And do you remember at what time that 
that was closed to begin the review process?
    Mr. Wheeler. I don't know those exact dates, ma'am; I can 
get them for you.
    Ms. Plaskett. OK. And then the proposed order is 
distributed to the other FCC commissioners for internal review 
and deliberation again, is that correct?
    Mr. Wheeler. Yes, ma'am.
    Ms. Plaskett. And what is that timeframe, do you recall how 
long?
    Mr. Wheeler. It is 3 weeks before the vote.
    Ms. Plaskett. All right.
    Mr. Wheeler. That is by our own internal record.
    Ms. Plaskett. And that is a critical portion of it, right, 
the commissioners' internal deliberations?
    Mr. Wheeler. Yes, ma'am.
    Ms. Plaskett. And then before the vote to adopt the Open 
Internet order on February 6th, there were calls to disclose 
that order, right?
    Mr. Wheeler. That is correct.
    Ms. Plaskett. And is it a general FCC policy to publicly 
release an order before the Commission votes on it?
    Mr. Wheeler. No, ma'am.
    Ms. Plaskett. And what could possibly be that, the issue of 
undue influence after that deliberation? What would be the 
reasoning behind that, the rationale?
    Mr. Wheeler. Well, the rationale is that, first of all, 
there has been this extended period of comment and public 
debate, and then you get to a point in time when the rubber 
meets the road and you are drafting, and you are going back and 
forth and editing a document that changes frequently as a 
result; and that is something that is dynamic and not public. 
One reason, you want to make sure you have the full 
participation of all of the commissioners; second, as I 
mentioned before, the opportunity to cause mischief in 
financial markets by misinterpretations of changing glad to 
happy is an issue. So these have always been in camera kinds of 
editorial activities.
    Ms. Plaskett. So then even after the vote, there are then 
additional steps that are taken before the order is final and 
ready for release, correct?
    Mr. Wheeler. Yes, ma'am.
    Ms. Plaskett. And you followed those.
    Mr. Wheeler. Yes, ma'am.
    Ms. Plaskett. And that includes commissioners' individual 
Statements with their opinions, further discussion and 
clarification of any significant arguments made from the 
dissenting Statements, and then the final cleanup edits, 
correct?
    Mr. Wheeler. Yes, ma'am. And when those final cleanup edits 
were made by the dissenters, that was about midday, and on the 
following morning, at 9:30, we released the item.
    Ms. Plaskett. And that final order was released on March 
12th, correct?
    Mr. Wheeler. Yes, ma'am.
    Ms. Plaskett. So it appears to be that you did not depart 
in any way from your rulemaking process in this respect, in 
regard to the open Internet. It really has been a question to 
many people's mind, and our good chairman and other 
individuals, whether you used your discretionary outside of 
what is the general rulemaking, right?
    Mr. Wheeler. That is correct.
    Ms. Plaskett. And if you had used your discretion, then we 
would be in a hearing about something else as to whether that 
discretion was appropriate or not appropriate based on the 
President weighing in on something that had huge importance to 
the people of the United States.
    Mr. Wheeler. I can't comment on that hypothetical, but the 
point of the matter is that we followed precedents and 
procedures that has been followed for years and years by both 
Republican and Democratic Commissions.
    Ms. Plaskett. Thank you very much.
    I yield the balance of my time and thank you.
    Chairman Chaffetz. I thank the gentlewoman.
    Now recognize the gentleman from Oklahoma, Mr. Russell, for 
5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    Thank you, Chairman Wheeler, for your long and dedicated 
public service to our Country. I know it is often thankless. 
And while opinions may differ, your dedication to it is 
appreciated.
    Mr. Wheeler. Sir, I recognize your badge. Thank you for 
your service.
    Mr. Russell. Well, thank you, sir.
    You had Stated in earlier testimony today that you came to 
an evolutionary decision because you determined it was 
reasonable for ISPs, but not reasonable for consumers with this 
ruling. Is it not true that with this ruling that Federal taxes 
could now be applied to consumers, where they were once 
prohibited?
    Mr. Wheeler. I think that that is in the hands of Congress. 
You all will get to decide that. Right now the Internet Tax 
Freedom Act specifically prohibits that, and whether that is 
changed is outside of my jurisdiction.
    Mr. Russell. But from an informational service to a 
communications service, by moving it to Title II, does it not 
lay the foundation for consumers being taxed?
    Mr. Wheeler. Again, that is going to end up being your 
decision, not mine.
    Mr. Russell. Was it possible when it was just an 
information service outside of Title II?
    Mr. Wheeler. Information services, some are taxed at State 
levels, I believe. Some could be taxed at State levels. I want 
to make sure it is could because we have the Internet Tax 
Freedom Act sitting on top of everything. So it cuts both ways, 
I guess.
    Mr. Russell. OK, Article I, Section 8 of the Constitution 
States that it is Congress that has the power to regulate 
commerce. Do you believe this?
    Mr. Wheeler. Yes, sir.
    Mr. Russell. Do you believe that the public would have been 
better served by giving Congress a chance to review the rules 
prior to their release, especially in light of your testimony 
today where you said that rules have to apply across all 
agencies and be considered?
    Mr. Wheeler. This has been, as you know, Congressman, a 10-
year process where there has been multiple input by multiple 
congresses along the way. There is legislation now, which is 
entirely appropriate. I think what our job is is to take the 
instructions of Congress as stipulated in statute and interpret 
them in terms of the realities of the day, and that is what we 
did.
    Mr. Russell. The quote that I would like to read to you by 
a senior vice president of a communications company says, ``The 
FCC today chose to change the way commercial Internet has 
operated since its creation. Changing a platform that has been 
so successful should be done, if at all, only after careful 
policy analysis, full transparency, and the Congress, which is 
constitutionally charged with determining policy.''
    Now, you and your agency have established a clear belief 
that adopting these Title II rules would create problems, as we 
have seen in some of the email traffic that we have reviewed 
today. You also have Stated in other emails produced to the 
committee that you did not intend to be a wallflower in your 
tenure at the Commission. But given the coordinated efforts in 
the pressure of the White House, the coincidentally timed 
protest, and other White House Statements, would it be 
unreasonable, then, for Americans to somehow feel betrayed that 
this decision was a cave against your earlier judgment and 
damaged the reputation of the FCC as an independent agency?
    Mr. Wheeler. No. And I also think that it is important to 
go to your key assumption there, quoting this senior vice 
president. The interesting thing in all of this is that there 
are four bright line rules. There are only four lines in this 
order: no blocking, no throttling, no paid prioritization, and 
transparency; and all of the ISPs have been saying publicly, 
buying newspaper ads, running TV commercials, you have been 
subject to it, saying, oh, we would never think of not doing 
that.
    So when this person says it is going to change the basic 
operation of the Internet, there is some kind of a discord 
there, some kind of a disconnect, because they are saying, oh, 
we are not going to do that, and then they say, oh, but when 
they require that we don't do that, that is changing the 
operation of the Internet; and I think that is kind of an 
underlying tension that has been going through this whole 
thing.
    Mr. Russell. Well, I would hope, as we move forward in the 
future, there is clearly going to be lawsuits in this process; 
there is going to be continued discussion about it; that we 
would make sure that Congress regulates commerce. I personally 
believe that what we will see follow will be a taxation of 
consumers. I think had they known that, they wouldn't have been 
so quick to click the Internet like to get these 4 million 
comments. And I think we have set back free information and 
access to all Americans. Thank you.
    I yield back the balance of my time.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentlewoman from Michigan, Mrs. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chairman and ranking member.
    Welcome, Chairman Wheeler.
    Mr. Wheeler. Thank you.
    Mrs. Lawrence. I appreciate you being here today. My 
friend, my colleague Stated that there was a Statement that you 
did not intend to be a wallflower. I find that refreshing. 
Those who take an oath to serve the people and to be part of 
our regulatory process should not be a wallflower; they should 
be actively engaged. And I appreciate the passion you have 
distributed today.
    I want you to know when I came to Congress I too had heard 
a lot about this net neutrality. I have done my homework and I 
came to Congress with an open mind and willingness to see both 
sides of this issue. I also am aware that over 4 million people 
filed public comments with the FCC. Four million. Most of them 
average people voting yes. And I also saw the President's 
comments on this issue.
    So one of the things I want to ask of you today, Mr. 
Wheeler, is to really solidify you in this position. Chairman 
Wheeler, you were supported by telecom companies when President 
Obama selected you to this position, is that correct?
    Mr. Wheeler. I believe so, yes, ma'am.
    Mrs. Lawrence. And you were unanimously, meaning both sides 
of the House, confirmed, by the Senate as well.
    Mr. Wheeler. Yes, ma'am.
    Mrs. Lawrence. So it was not just one side of the House, of 
the Senate, it was both sides.
    Mr. Wheeler. No, ma'am. Yes, ma'am.
    Mrs. Lawrence. And then from 1976 to 1984, you worked for 
the National Cable Television Association, which is clearly 
representing these agencies that would be affected, and 
eventually became the president and CEO, is that correct?
    Mr. Wheeler. Yes, ma'am.
    Mrs. Lawrence. And from 1992 to 2004, Chairman Wheeler, you 
served as the president and the CEO of the Cellular 
Telecommunications and Internet Association, is that correct?
    Mr. Wheeler. Yes, ma'am.
    Mrs. Lawrence. Clearly, you would not be a wallflower. So 
you know this telecom industry very well, because if there ever 
was such a thing as the Internet or ISP, you would know that, 
correct?
    Mr. Wheeler. I have spent my professional life in this 
space, ma'am.
    Mrs. Lawrence. So, knowing this, would you push for 
regulations that you knowingly were aware that would damage the 
industry that you represented for so many years?
    Mr. Wheeler. [No audible response.]
    Mrs. Lawrence. So the decision and the regulation that you 
advocated for, your position was this wold not damage, but 
enhance.
    Mr. Wheeler. Thank you, Mrs. Lawrence, that is a really 
good question. I think there are two answers to it. No. 1 is 
that, yes, I was the chief advocate, chief lobbyist for those 
two industries when they were growth industries, not the 
behemoths that they are now, but a different time.
    Mrs. Lawrence. Right.
    Mr. Wheeler. And I hope I was a pretty good advocate. They 
were my client. My client today is the American consumer.
    Mrs. Lawrence. Yes.
    Mr. Wheeler. And that is who I want to make sure that I am 
representing.
    Mrs. Lawrence. Yes.
    Mr. Wheeler. Now, doing that, we do not help the American 
consumer by cutting off the nose of those who provide 
competitive broadband service to spite your face. So what we 
were doing in this was balancing the consumer protection with 
the investment necessary to provide competitive broadband 
services. And I went back to my roots as the president of CTIA, 
when the wireless industry sent me to Congress and said we need 
to be regulated as a Title II common carrier with forbearance, 
and Congress agreed with that, and that is the rules under 
which the wireless voice industry since then has had $300 
billion in investment and become the marvel of the world.
    So the answer is yes on both fronts. You can't help 
consumers if you are not stimulating broadband growth. But my 
job today is representing American consumers.
    Mrs. Lawrence. And just for the record, because the 
questioning today is inferring that, would you support 
regulations, and you eloquently Stated that there is a 
balancing of this and information and your experience bring you 
to this point, would you support regulations that would hurt 
ISPs just because the White House thought it was a good idea?
    Mr. Wheeler. Throughout this process I have been trying to 
be very independent and very thoughtful.
    Mrs. Lawrence. And, last, do you honestly believe that net 
neutrality will stifle innovation, hurt access, or hinder the 
growth and development of the telecom industry, given your 40 
years of experience?
    Mr. Wheeler. No, ma'am. And it is not just my opinion that 
counts, however. But when major Internet service providers like 
Sprint, like T-Mobile, like Frontier Communications, like 
Google Fiber, like hundreds of rural providers say that they 
too believe they will be investing and continuing to growth 
competitive broadband, I believe that is reinforcement of this 
point.
    Mrs. Lawrence. Thank you for your service, and I yield back 
my time.
    Chairman Chaffetz. Thank you.
    We will now recognize the gentleman from Alabama, Mr. 
Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Thank you, Mr. Wheeler, for testifying.
    Mr. Wheeler. Mr. Palmer.
    Mr. Palmer. You claimed in your opening Statement that this 
was the most open and transparent rulemaking in FCC history, is 
that correct?
    Mr. Wheeler. Yes, sir.
    Mr. Palmer. You have claimed in your testimony that all of 
your communications with the White House were properly 
accounted for with ex parte filings, is that correct?
    Mr. Wheeler. Yes, sir.
    Mr. Palmer. Would you put up the slide, please?
    While they are working on that slide, I have here a copy of 
your ex parte filing for the President's Statement on net 
neutrality. Mr. Wheeler, it is two paragraphs long, three 
sentences total. Are we left to believe that the entirety of 
the White House's involvement in this process can be captured 
in just three sentences?
    Mr. Wheeler. I am now being passed--this is the letter, 
November 10, Dear Ms. Dorsch?
    Mr. Palmer. Yes, that is correct.
    Mr. Wheeler. I believe that it has, then, a two-page 
attachment with it that gets quite specific and says what 
bright line rules should be and things such as that, that 
wireless should be covered and things like that.
    Mr. Palmer. Do we have that?
    Chairman Chaffetz. They are working on getting it, but I 
believe the portion that deals with this topic is, as the 
gentleman says, three sentences.
    Mr. Palmer. Three sentences, yes.
    Mr. Wheeler. I disagree, respectfully, sir. They put in 
here the entire Statement of the President in which he was 
saying this is what I think we ought to stand for.
    Chairman Chaffetz. If the gentleman would yield.
    Are you telling us that Jeffrey Zients came over to meet 
with you and just read the President's Statement?
    I will yield back to Mr. Palmer.
    Mr. Wheeler. I don't think that was the question. Maybe I 
am confused here, Mr. Palmer.
    Mr. Palmer. Well, let me be a little more specific. Your 
calendar shows on February 2014 you had two phone calls the 
same afternoon with a counselor to the President, John Podesta, 
and with the White House Office of Science & Technology Policy, 
is that correct?
    Mr. Wheeler. If the calendar says that, I don't recall 
talking to Mr. Podesta, but if the calendar says that.
    Mr. Palmer. You don't recall talking with Mr. Podesta? Do 
you have any recollection of a phone call with Mr. Podesta on 
that day?
    Mr. Wheeler. If the calendar says, sir, I will stipulate to 
it.
    Mr. Palmer. Do you recall talking to the White House Office 
of Science & Technology Policy?
    Mr. Wheeler. I have talked to them, yes, multiple times.
    Mr. Palmer. Can you give us an idea of what was discussed 
in either of those calls?
    Mr. Wheeler. I don't recall the specific--what was the date 
that you were specifying?
    Mr. Palmer. February of last year, 2014.
    Mr. Wheeler. I don't know what the specifics of that call 
were, I don't recall it.
    Mr. Palmer. Do you have a recollection of having those 
calls?
    Mr. Wheeler. If my calendar says, then I must have. I don't 
have a recollection of it. And the other thing is there is a 
whole bunch of things that are going on that are relevant, but 
I don't know what we were talking about.
    Mr. Palmer. Well, it shows up on your calendar, and if you 
are having a difficult time remembering the calls and certainly 
the content of those calls, should either of those calls have 
been recorded as ex parte contacts?
    Mr. Wheeler. I think there are two answers to the question. 
One, I don't recall the content; second, as we have discussed 
previously, there are specific guidelines rules as far as what 
ex parte is; and, third, that there is, and has been since the 
first Bush Administration, a ruling that contacts with the 
Administration and with the Congress are not ex parte.
    Mr. Palmer. Last question here. What other contacts do you 
recall that you have had with the White House staff prior to 
the April 2014 emails that have been publicly released?
    Mr. Wheeler. You have my calendar and you have my emails.
    Mr. Palmer. Mr. Chairman, I yield the balance of my time.
    Chairman Chaffetz. Now recognize the gentleman from 
California, Mr. DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Mr. Chairman, I just want to thank you for your service. I 
am tremendously proud of not just your decision, but also your 
testimony today, and how you have handled yourself, 
particularly considering, as one of my colleagues pointed out, 
your background.
    Mr. Wheeler. Thank you.
    Mr. DeSaulnier. And coming from the San Francisco Bay Area, 
obviously the importance to innovation for us and having many 
constituents and friends who work at companies like Facebook 
and Google and Apple, we want to make sure we get it right; and 
also having a presence in my district of AT&T and Comcast, I 
understand the balance you had to go through.
    I also understand the importance of the balance of your 
independence and expertise of independent commissions and their 
relationship with the Administration and Congress, and I 
actually think there is obviously a very strong argument to be 
made that someone like yourself and your staff are more 
appropriately situated to avoid some of the politics and make 
these decisions.
    Having said that, I was particularly taken by your comments 
to one of the questions about whether you were, by appearance, 
looking like you were sort of second-guessing your decision and 
your vote, and your response to that, I thought, was very 
forthright and very determined and clear. So that was to the 
decision. Knowing that the process is probably as important and 
the perspective of the process is as important as the actual 
decisionmaking, how would you respond to the question of are 
you equivocating about your concerns about the questions you 
are being asked and the process?
    Mr. Wheeler. So I believe that we handled this, 
Congressman, just as any other issue that comes before us, 
whether it is exciting and headline grabbing like this or much 
more mundane things we normally deal with; that we used the 
established procedures and precedents very religiously.
    Mr. DeSaulnier. So would you say that your comments about 
your pride in the actual decisionmaking you feel equally as 
proud as the process?
    Mr. Wheeler. I think the process worked, sir.
    Mr. DeSaulnier. OK. So your comment about the number of the 
input from the public, the 4 million comments, would you 
ascribe a reason for that? I have gotten lots of input, I know 
we all have, from average, everyday citizens. Could you ascribe 
the motivation?
    Mr. Wheeler. I think that the Internet touches people's 
lives more than any other network probably in the history of 
mankind, and everybody, believe me, everybody has an opinion 
about the Internet and everybody wants to talk about the 
Internet. So when you begin addressing issues such as will the 
Internet continue to be fair, fast, and open, those are things 
that it doesn't take an engineering degree or a computer 
science degree to be able to understand. Those are things you 
can understand that affect people individually, and I think 
that is why we had this kind of response.
    Mr. DeSaulnier. I appreciate that. It is interesting 
sitting in this room and seeing behind you a picture of the 
connection of the Transcontinental Railway. When you look from 
a historical perspective of how the Federal Government has 
handled what would be considered assets of the commonwealth, 
but also wanted to be fair to the people who were investing 
from the private sector, whether it was railroads or television 
or the media, from your perspective, one of the concerns is who 
benefits and who does not, and usually the poorest Americans 
have benefited the least, at least in the short-term.
    Do you have any comments about this rulemaking and the 
digital divide? Will it help eliminate that or by not doing 
this rulemaking and having sort of an opposite rulemaking, how 
it would affect the poorest of Americans?
    Mr. Wheeler. If you do not have access, free, fair, open 
access, then you, per se, have a divide; and so when we come 
out and talk about how there needs to be, no matter where you 
are, no matter what legal content it is, that there should be 
open access to it, that the predicate to not having a divide. 
Not to say that there aren't challenges that we will continue 
to face, but that the baseline is there has to be openness.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. I thank the gentleman.
    Now recognize the gentleman from Iowa, Mr. Blum, for 5 
minutes.
    Mr. Blum. Thank you, Mr. Chairman.
    Thank you, Chairman Wheeler, for being here today and 
sharing your insights with us. I must admire your green tie. 
Obviously, I did not get the memo.
    Mr. Wheeler. It is that day.
    Mr. Blum. Yes.
    I have a general question.
    Mr. Wheeler. When you grow up with an Iowa woman who is big 
into Irish, you make sure that you wear a green tie, sir.
    Mr. Blum. Well said.
    I have a general question for you and then a more specific 
question. In your opening Statement this morning, you mentioned 
that one of the FCC's goals, let me make sure I get this 
correct, is to protect the open Internet as a level playing 
field for innovators and entrepreneurs.
    Mr. Wheeler, I am one of those innovators and I am one of 
those entrepreneurs. My concern, as a small businessman, Mr. 
Wheeler, is I have seen firsthand what happens to private and 
free marketplaces when the heavy hand of the Federal Government 
gets involved; and typically what happens, we see less 
innovation, we see lower qualities, we see higher prices, 
higher taxes. An example of that recently is the Affordable 
Care Act, which was supposed to help level the playing field 
for small businesses, and we have seen there higher prices, 
less innovation, higher taxes.
    My question to you, and a question I get asked in Iowa 
often, Mr. Wheeler, is what steps is the FCC going to take to 
ensure, to ensure that the Internet remains vibrant, 
innovative, and open, when history, once again, has shown us 
when the heavy hand of the Federal Government gets involved in 
a free and vibrant market, bad things happen?
    Mr. Wheeler. Thank you, Mr. Blum. First of all, I would 
like to identify with you as one entrepreneur to another. I too 
have been a small businessman; I have started a half a dozen 
companies. Some worked, some didn't.
    Mr. Blum. That happens.
    Mr. Wheeler. You understand that experience as well, I am 
sure.
    Mr. Blum. Yes.
    Mr. Wheeler. And for the decade before I took this job, I 
was a venture capitalist who was investing in early stage 
Internet protocol-based companies. So I know both personally, 
from my own entrepreneurial experience, as well as from my 
investing experience, that openness is key. If the companies 
that I had invested in did not have open access to the 
distribution network, it would have been an entirely different 
story.
    Mr. Blum. What will you do to guarantee it?
    Mr. Wheeler. What you can tell your constituents is that it 
is openness that is the core of creativity, because there 
should be nobody acting as a gateway and saying, hmm, you are 
only going to get on my network if you do it on my terms. And 
the key, then, as we go to the previous discussion that what 
you want to do is make sure you have that gateway not blocking 
the openness of entrepreneurs and at the same point in time 
that gateway not being retail price regulated so that it can 
continue to invest. And that is the kind of balance that we 
were trying to do. But I would urge you to tell your 
constituents the opportunity for innovation and the opportunity 
for the scaling that is required of innovation has never been 
greater because the networks are open.
    Mr. Blum. With all due respect, many people back in Iowa 
would say you are trying to solve a problem that doesn't exist 
today.
    I have a specific question for you. During an interview 
with the Consumer Electronics Show in January, you said that 
you had an aha moment in the summer of that year when you 
realized the Telecommunications Act of 1996 applied Title II 
classification to wireless phone providers, but exempted them 
from many of its provisions.
    Later in the year, House Communications Subcommittee Chair 
Greg Walden said that he met with you in November 2014 to 
reiterate congressional Republicans' concern with Title II 
regulation of the Internet. In that meeting, Chairman Walden 
said you assured him that you were committed to net neutrality 
without classification of broadband under Title II. Sounds to 
me like a flip flop. Can you explain that difference?
    Mr. Wheeler. I respect Mr. Walden greatly, and I am going 
to be testifying before him on Thursday. I saw that he made 
that Statement. I went back to the contemporaneous notes from 
that meeting and we have a completely different set of 
recollections and, in fact, the notes because my notes say that 
I said that we would use light touch Title II and Section 706. 
I don't know what is going on; all I am saying is those are 
what my notes are, sir.
    Mr. Blum. Thank you.
    I yield my time.
    Chairman Chaffetz. Thank you.
    Now recognize the gentleman from Georgia, Mr. Carter, for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank you, Mr. Wheeler, for being here today. We appreciate 
it very much. In the short 5 minutes that I have, I want to try 
to get a better understanding of two things. First of all, 
throughout the process today and through my reading and through 
listening, it just appears that the whole process, there was 
more attention paid to the White House than there was to 
Congress, and I just don't understand why that would be the 
case in an independent body like yours. Did you serve on the 
transition team for the Obama Administration?
    Mr. Wheeler. Yes, sir.
    Mr. Carter. You did. That is correct. So it is safe to say 
and true to say that you have a very close relationship with 
the President, is that right?
    Mr. Wheeler. I am not sure that I have a close relationship 
with the President. I know the President.
    Mr. Carter. Well, you served on his transition team. I 
don't think he would have somebody who wasn't close to him on 
his transition team. Agreed?
    Mr. Wheeler. I am not going to make representations for the 
President.
    Mr. Carter. OK. Fair enough. Fair enough. OK, well, he 
didn't ask me to be on his transition team. Let's put it that 
way, OK?
    Well, the day after the vote for the rule, did it strike 
you as being interesting at all that a fellow commissioner of 
yours called the new rule President Obama's plan?
    Mr. Wheeler. Everybody is entitled to their own opinion. I 
think it is appropriate to State something very clearly in 
response to what you are saying. Since taking this job, I met 
once with the President in the Oval Office; it was the first 
couple of days on the job. It was congratulations, welcome to 
the job.
    Mr. Carter. I understand that.
    Mr. Wheeler. In that meeting, in that meeting, sir, he said 
to me you need to understand I will never call you; you are an 
independent agency.
    Mr. Carter. Then why do you think a fellow commissioner 
made the comment that this is President Obama's plan for the 
Internet? Why do you think that someone would make that 
comment?
    Mr. Wheeler. He has been good to his word, sir, and I have 
no idea why somebody would want to make that kind of comment.
    Mr. Carter. Why do you think that the Democratic National 
Committee made the Statement that it was President Obama's 
plan?
    Mr. Wheeler. I have noticed occasionally over time that 
both committees will engage in hyperbole.
    Mr. Carter. So you just think it is hyperbole? Do you agree 
with the DNC's Statement?
    Mr. Wheeler. I believe that this is a plan that was put 
together by the FCC.
    Mr. Carter. So you do not agree with the DNC's Statement 
that this is President Obama's plan.
    Mr. Wheeler. Well, let's get specific. One, he didn't have 
Section 706 in what he sent when he sent something in. Second, 
he didn't cover interconnection, which we cover. Third, he 
talked about forbearing from rate regulation, not the 26 other 
things that we do. I think that we produced a plan that is 
uniquely our plan and is a plan that is based on the record 
that was established before us; and that when the President 
joined the 64 Democratic Members of Congress and the millions 
of people and said he too thought this made sense, that he was 
piling on rather than being definitive.
    Mr. Carter. All that is fine, but let me ask you through 
the process of this evolution of the plan, did your thought 
process change at all? I mean, initially it appeared that you 
had in mind what was referred to as a hybrid 706 plan.
    Mr. Wheeler. You actually used the right word there, my 
evolution on this plan. I started out with pure 706 and then I 
realized, as I said in my testimony, that that wouldn't work 
because of the commercially reasonable test, and so I started 
exploring Title II kinds of ideas.
    Mr. Carter. Did anyone lead you in this exploration?
    Mr. Wheeler. Yes, sir, all kinds of commenters and a lot of 
work that was put into that.
    Mr. Carter. Do you think any of those commenters were 
influenced by the White House?
    Mr. Wheeler. I have no idea.
    Mr. Carter. One final question. Do you feel that you paid 
as close attention to the White House as you paid to Congress?
    Mr. Wheeler. Sir, I believe that I have, frankly, spent 
more time discussing this issue with Members of Congress than 
with the Administration.
    Mr. Carter. Then ultimately do you feel like you listened 
to the input of Congress more so than the White House?
    Mr. Wheeler. I paid full attention to the record that was 
established in this proceeding, and it included Members of 
Congress saying no, don't do Title II, and it included Members 
of Congress saying do do Title II.
    Mr. Carter. Again, do you feel like you paid as close 
attention to Congress as you did to the White House?
    Mr. Wheeler. I think my responsibility is to be responsive 
to all of the people who are involved.
    Mr. Carter. I can't tell whether that is a yes or no.
    Mr. Wheeler. I think I was very responsive to Congress.
    Mr. Carter. Thank you very much.
    Chairman Chaffetz. Thank the gentleman.
    And I appreciate the gentleman's commitment to St. 
Patrick's Day as exemplified by that jacket, but the chair is 
prepared to rule that he has only been outdone by the gentleman 
from Wisconsin, who clearly is wearing his colors today, and 
will now recognize that gentleman from Wisconsin, Mr. Grothman, 
for 5 minutes.
    Mr. Grothman. Thanks for hanging around so long.
    Last month The Wall Street Journal, you maybe saw, had an 
article reporting that the White House had spent months in a 
secretive effort to change the FCC course. Did this news come 
as a surprise to you? When you heard about it, what was your 
reaction?
    Mr. Wheeler. So there is a standard process, I believe, 
where the White House works on developing their position. I was 
not a part of it.
    Mr. Grothman. Did it surprise you when you heard about it?
    Mr. Wheeler. It is not a surprise that something like that 
goes on.
    Mr. Grothman. OK. Last spring and summer you had various 
meetings with White House officials. Did you become aware at 
that time that the White House was working on an alternative to 
your original proposal?
    Mr. Wheeler. I had heard rumors that the White House was 
looking at this, as I say, like they look at all other issues 
to develop an administration position.
    Mr. Grothman. OK. The White House, apparently, in 
formulating this alternative, had dozens of meetings with 
online activists, startups, traditional telecommunication 
companies. We believe participants were allegedly told not to 
discuss the process. Were you aware of these meetings at the 
time?
    Mr. Wheeler. I knew that there was a process, this group. I 
did not know who they were meeting with.
    Mr. Grothman. OK.
    I yield the rest of my time.
    Chairman Chaffetz. Thank you.
    Now recognize the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Mr. Wheeler, as we now wind down this 
hearing, Mr. Chairman, I want to thank you again for your 
testimony. When decisions are made by various bodies, 
commissions, quite often people are in disagreement with those 
decisions, and I don't think there is anything wrong with 
looking behind the curtain to try to figure out what the 
process was, because one of the things that we have been 
pushing very hard on in this committee is the whole idea of 
transparency. So your testimony has been very enlightening.
    I think we need to keep in mind that these decisions are 
made by people who come to government, and they don't have to 
do that, but they come to government trying to bring their own 
experiences to the table, their concerns, and their hopes of 
bringing us more and more to that perfect union that we talk 
about.
    So I want to thank you for all that you have done and 
continue to do. And I want to thank the other commissioners and 
your employees. I think a lot of times in these circumstances 
we forget that there are employees who have worked very hard on 
these issues and trying to do it right, so that is very 
important. I hope that you will take that back to your 
commissioners and the employees.
    And I am hopeful that we can move forward here. Again, I 
have listened to you very carefully. There was a moment, I 
mentioned to my staff, that kind of touched me a bit, when you 
were asked whether you were backtracking on your decision; and 
the passion that you responded in saying that absolutely not, 
this is a decision that you all made and that you are proud of 
it, and that is something that is very important to you. You 
can't fake that. You can't fake it. And as a trial lawyer, I am 
used to watching people testify.
    Another thing that you said and you were very clear is that 
you adhered to the rules, and I appreciate that and I believe 
so. So we look forward to continuing to work with you and again 
I want to thank you for your testimony.
    Mr. Wheeler. Thank you, Mr. Cummings.
    Chairman Chaffetz. Mr. Chairman, I appreciate your being 
here today. We were made aware that the inspector general has 
opened an investigation of this process. Are you aware of that 
investigation?
    Mr. Wheeler. No.
    Chairman Chaffetz. It is my understanding it is not an 
audit, it is not an inspection, but an actual investigation. 
Would you be willing to cooperate with this investigation?
    Mr. Wheeler. Of course.
    Chairman Chaffetz. I think one of the key things, and it 
was brought up on both sides, is the process of openness and 
transparency. My personal opinion, there could have been a lot 
more done to maximize the transparency and the openness. The 
rules do allow you latitude to give it more transparency than 
you did. I think one of the things our body should look at is 
compelling that openness and transparency, rather than making 
it simply discretionary; and that is something we will have to 
take back, because there are rulings that go one direction or 
another. Some people are happy, some aren't.
    But the idea that the public could, say, have a 30-day 
opportunity to see the final rule I think rings true with a lot 
of people. This notion that, right up until the time you voted 
for it, nobody outside of that Commission is allowed to see the 
final product does not lend itself well to maximizing openness 
and transparency. And that is just my comment, it is not a 
question. But I do think a 30-day window would do that.
    I also think that the interactions with those who have an 
opinion is fine, it is a healthy one. But the lack of 
disclosure about those, overly redacting emails does lead one 
to believe that there was a bit more of a secret type of 
communication going on there, and I think you can understand, 
at least I hope that you can appreciate why some people would 
come to that conclusion, particularly given the dramatic change 
in the policy that you took.
    Nevertheless, I think this was a good and healthy hearing. 
We appreciate your participation. That is what this process is 
about. There are fact-finding things that we engage in and I 
appreciate your participation here today. We do have a number 
of outstanding requests from the FCC that we would appreciate 
your providing that information to this committee. Some take a 
little bit longer in time, some are fairly easy, but we 
appreciate your staff who have to do a lot of this work, and 
thank them for those efforts.
    This committee now stands adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]




                              APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
